<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         TUESDAY, JUNE 27, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Cochran, Alexander, Graham, 
Capito, Lankford, Kennedy, Rubio, Murray, Durbin, Schatz, 
Murphy, and Manchin.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. R. ALEXANDER ACOSTA, SECRETARY


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order.
    First of all, good morning, Secretary Acosta. We are glad 
you are here and glad you are appearing before this committee 
today to discuss your Department's fiscal year 2018 budget 
request.
    As you know, the budget is significantly challenged in 
terms of the cuts in your Department. I think the proposed cuts 
of $2.3 billion are about one-fifth of the Department's 
operating level. Certainly while I appreciate--and I think many 
of us appreciate--the Department's prioritizing limited 
resources and making decisions to realign programs, the 
fundamental question is really what you choose to cut and 
whether you can possibly look at that number and make an 
argument as to why that much of your previous budget should be 
cut this year.
    It is not the first time that these kinds of cuts have come 
in the Department. Last year, President Obama proposed about 
the same level of cuts, though he proposed that somehow that 
these programs would lean heavily on new mandatory spending to 
bypass what were the actual budget caps in the law then. Of 
course, those budget caps are in the law still.
    Instead of making difficult decisions of prioritizing, the 
last administration just moved funding to new mandatory 
programs. I think this year the Department has submitted a 
budget that so significantly cuts programs or eliminates them 
altogether that it is really hard for us to figure out your 
priorities. And we look forward to visiting with you about 
that.


                 reductions to worker training programs


    I have serious concerns about the worker training 
reductions, particularly the proposal to cut State grants by 40 
percent and close Job Corps centers. The President has 
recognized that there are millions of jobs in the country that 
do not have skilled workers with the skills to take those jobs. 
We need to make certain that our workforce training programs 
and apprenticeship programs equip individuals with the skills 
they need to meet the workforce needs of today and tomorrow.
    While there are no easy answers when it comes to budget 
limitations, I am concerned that reducing funding so much and 
so suddenly and particularly taking so much of that from worker 
training would further jeopardize our workforce development 
efforts and our ability to compete with and for better jobs and 
stronger families.
    As the fiscal year 2018 appropriation process moves 
forward, it is my hope to work together with you and everyone 
on this committee to identify priorities, find common ground, 
and how to best spend the taxpayer money that we are given 
responsibility for.
    So, Mr. Secretary, I look forward to your testimony, but 
first I would like to go to Senator Murray for her opening 
remarks.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary Acosta, for appearing before the 
Subcommittee today to discuss the Department of Labor's fiscal year 
2018 budget request. We look forward to hearing your testimony.
    The Department's budget is under significant budgetary constraints 
this year. The proposal cuts $2.3 billion, or about one-fifth, of the 
Department's current funding level.
    While I appreciate the Department prioritizing limited resources 
and making decisions to realign programs, the fundamental question is 
whether you chose to cut programs because they are ineffective and no 
longer needed or because the topline number forced you to do so.
    This is not the first time we've seen these types of cuts to the 
Department. Last year, President Obama submitted an equally precarious 
budget request. While President Obama's budget proposed significant 
cuts to the Labor Department, it was only because his budget leaned 
heavily on new, mandatory spending proposals to bypass the actual 
budget caps. Instead of making the difficult decisions necessary to 
prioritize funding, the last Administration made the risky decision to 
move numerous programs out of the annual appropriations process without 
knowing whether there was a path forward for mandatory funding. 
Needless to say, mandatory funding did not happen.
    This year, the Department submitted a budget that so significantly 
cuts programs or eliminates them altogether that it is difficult to 
understand where your true priorities lie.
    I have serious concerns with the worker training program 
reductions--particularly the proposals to cut State grants by 40 
percent and close Job Corps Centers. The President has recognized that 
there are millions of vacant jobs in this country and I hear about the 
difficulty finding work in the sectors impacting building trades all 
the time. We need to make certain that our workforce training programs 
and apprenticeships equip individuals with the skills they need to meet 
the workforce needs of today and tomorrow.
    While there are no easy answers when it comes to the budget 
limitations we face, I am concerned that reducing funding so much and 
so suddenly from worker training could further jeopardize our workforce 
development system, contribute to increasing problems that might hinder 
individuals and businesses, and have a negative impact on the economy.
    As the fiscal year 2018 appropriations process moves forward, it is 
my hope to work together to identify priorities and find common ground 
on how best to responsibly allocate taxpayers' resources.
    Mr. Secretary, I look forward to hearing your testimony today and 
appreciate your dialogue with us about these important issues.
    Thank you.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you very much, Chairman Blunt.
    Welcome, Secretary Acosta.
    Before we talk about this, what I think is an indefensible 
budget request, I do want to reiterate again today how 
appalling it is that we are now potentially days, if not hours 
away from voting on legislation that would spike healthcare 
costs for patients nationwide and kick millions of people off 
of coverage as we have now seen with the CBO (Congressional 
Budget Office) numbers. And yet, Senate Republicans have yet to 
hold a single hearing or any kind of open public debate under 
regular order. And now that we have seen it, it is pretty easy 
to see why. This is going to be a devastating bill and have a 
tremendous impact on patients and families. So we on this side 
remain deeply, deeply concerned about that.
    Now, this committee has a history of working together in a 
bipartisan manner, and I sincerely hope my colleagues remember 
that and urge their leadership to hold an open, transparent 
process so people all across the country do have time to 
understand what is in store for their health and their 
financial security.

                     DISCUSSING 2018 BUDGET REQUEST

    Secretary Acosta, while Trumpcare has huge implications for 
our Nation's workforce--and I do plan on asking about that--I 
first want to address the deeply harmful budget request that 
has been put forward. As I am sure you are aware, connecting 
workers to sustainable jobs and employers to a skilled 
workforce has been Department of Labor's central mission for 
decades. And that is because we know that one of the surest 
paths to good paying jobs is investing in training and 
education for in-demand skills. Our ability as a Nation to 
attract and keep good jobs here at home and grow our economy 
will only be realized by tapping into the full potential of our 
workforce.
    On the campaign trail, candidate Trump promised to put 
workers first, but as President he has consistently pursued an 
anti-worker agenda that benefits those at the top and leaves 
workers and families paying the price. In fact, the President's 
recently announced executive order on apprenticeships would 
actually loosen standards that are intended to make sure 
businesses getting Federal workforce funds actually deliver 
results. Given the Trump administration's pattern of lining the 
pockets of corporations and special interests at the expense of 
workers, it is hard to see this executive order is anything but 
another thinly veiled broken promise from the President who 
promised to put workers first, but has failed to do since day 
one.
    The President's budget for the Department of Labor doubles 
down on those broken promises. The budget completely disregards 
the overwhelmingly bipartisan enactment of the Workforce 
Innovation and Opportunity Act, WIOA, in 2014 where Republicans 
and Democrats came together to streamline the Nation's job 
training programs to make sure they targeted, effective, and 
built to last.
    Instead, President Trump's budget proposes deep cuts to 
those investments that provide over 20 million workers with 
21st century skills they need to succeed in a rapidly changing 
global economy. The President's budget would mean that 9 
million workers, including dislocated coal miners and veterans, 
would lose access to those critical services next year. Again, 
these are precisely the working families Trump said he would 
support and protect during his campaign.
    Secretary Acosta, although important consumer protections 
for those saving for retirement will go into effect tomorrow, I 
do remain concerned that you still intend to substantially 
revise and weaken those protections. I am hopeful that you will 
be similarly guided by the rule of law in addressing the 
overtime rule. This is an opportunity to stand up to political 
pressure from the White House when workers and families needs 
are on the line, and I hope you take it.
    I do remain deeply concerned about President Trump's 
harmful agenda for workers and the Federal investments that 
help make sure they are safe and have security. Democrats are 
going to continue rigorous oversight to hold you, Mr. 
Secretary, and the administration accountable for the damage 
that is done to workers' safety, security, and opportunity.
    And I do hope that Republicans will join Democrats in 
continuing to reject the devastating cuts in President Trump's 
budget proposal just as we did in the fiscal year 2017 omnibus 
to continue robust investments in job training programs that 
coordinate with the efforts of key workforce partners, business 
leaders, workforce boards, labor unions, community colleges, 
nonprofits, and State and local officials to make sure all 
workers can acquire the skills that they need to get a good job 
and climb the ladder of opportunity and grow the economy.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Murray.
    Glad to have the Chairman of the Full Committee with us. 
Senator Cochran, do you have anything you would like to start 
with?
    Senator Cochran. Mr. Chairman, I do have a couple of 
questions.
    Senator Blunt. Well, let us get Mr. Acosta's testimony 
first and we will go to questions after that.
    So, Secretary Acosta, we are glad you are here. The 
Secretary is now serving in his fourth presidentially 
appointed, Senate-confirmed job. Most recently he served as the 
Dean of the Florida International University College of Law. 
Mr. Secretary, we are glad you are here. This is always a 
Department where you have your hands full, but meeting the 
opportunities of the future is important and we look forward to 
hearing you talk about that and this budget.

             SUMMARY STATEMENT OF HON. R. ALEXANDER ACOSTA

    Secretary Acosta. Mr. Chairman, thank you. And Ranking 
Member Murray, Chairman Cochran, Members of the Committee, 
thank you for the opportunity to testify this morning.
    It is an honor to appear before the Committee to outline 
the administration's vision for the Department of Labor in 
fiscal year 2018 and beyond. Supporting the ability of all 
Americans to find good jobs and safe jobs is a priority for 
President Trump and it is a priority for me. I am proud and I 
remain humbled in leading the Department of Labor in this 
critical work.
    Presently, the unemployment rate in the United States is 
4.3 percent. That is a 16-year low. One has to go back to 2001. 
This is great news.
    Another very important statistic, however, is that there 
are presently 6 million job openings in the United States. That 
is the highest number since the Department of Labor started 
keeping records on open jobs. We can get more Americans back to 
work if we match those who are looking for work with these 
available jobs.

                         CLOSING THE SKILLS GAP

    During my short time as Secretary of Labor, I have heard 
from many business leaders, Governors, mayors, and just 
Americans, and they all say that there is a skills gap. They 
tell me that workers just do not have the right training to 
step into many of these vacant positions. The apprenticeship 
model is a good solution to narrowing the skills gap. As has 
been mentioned, it is bipartisan. President Trump knows the 
value of apprenticeships from his many years of experience in 
the building trades. The President also knows that this is a 
model that works across many industries and should be expanded 
across industries both in terms of breadth and scale. High 
quality--and I emphasize high quality--apprenticeships enable 
employers to be involved in training their future workforce so 
they can be sure that new hires possess the skills needed to do 
the job. It is called demand-driven education. Apprentices 
receive wages and, just as importantly, skills that enable them 
to thrive in today's workforce. They earn while they learn.
    According to the Bureau of Labor Statistics, graduate 
apprenticeship programs have a high average starting wage, 
$60,000. That is higher than the typical college graduate. They 
are likely to have a job upon the completion of their program 
and often receive certificates recognizing their education that 
are portable across industry.
    President Trump's executive order on expanding 
apprenticeships directs the Department of Labor and other 
government agencies to pave the way for more apprenticeships. 
Getting Americans back to work also requires eliminating 
programs that are less effective at helping Americans get jobs. 
There are many programs intended to help Americans find or 
train for jobs, but some of them are duplicative, unproven, or 
ineffective.

                    STREAMLINING GOVERNMENT PROGRAMS

    The Department is committed to streamlining programs based 
upon rigorous analysis of available data to assess programmatic 
effectiveness. The Department also believes that giving States 
more flexibility to administer Department resources in a way 
that best suits the State needs will ensure that resources are 
used as efficiently and effectively as possible.

    STRENGTHENING COMPLIANCE ASSISTANCE AND MAINTAINING ENFORCEMENT

    The Department believes a vast majority of employers across 
the Nation are responsible actors, fully committed to following 
worker protection laws. The Department has placed a priority in 
helping American employers understand and remain in compliance 
with those laws.
    But the Department likewise takes very seriously its 
responsibility to enforce the law. Enforcement must go hand in 
hand with compliance assistance. We will vigorously enforce the 
law against wrongdoers. A good job should also be a safe job. 
The budget includes funding increases of nearly $17 million to 
the Department's worker protection agencies to support these 
goals.

                   FISCAL YEAR 2018 BUDGET PRIORITIES

    We are going to focus the Department of Labor on its core 
mission by making smart investments in programs that work. The 
budget makes hard but responsible choices. It eliminates 
programs that are less effective or less efficient and 
dedicates taxpayer dollars to those that we know that are 
successful. Americans want good and safe jobs. The Department 
is here to support Americans' desire to gain and hold these 
jobs. The budget restores the Department to this fundamental 
mission investing in programs known to be successful. The 
proposals are evidence-based and reflect the seriousness with 
which the administration is taking these responsibilities.
    Let me say in closing I understand, Mr. Chairman, your 
remarks, and I understand that going back year after year, the 
budget is a starting point. And as in the past, we look forward 
to working with your committee as we go forward on discussions 
regarding these issues. The focus has and will have to be on 
protecting America's workers.
    And so thank you for the opportunity to be here.
    [The statement follows:]
             Prepared Statement of Hon. R. Alexander Acosta
    Chairman Blunt, Ranking Member Murray, and members of the 
Subcommittee, thank you for the invitation to testify today. It is an 
honor to appear before the committee to outline this Administration's 
vision for the Department of Labor in fiscal year 2018 and beyond. 
Supporting the ability of all Americans to find good and safe jobs is a 
priority for President Trump and for me. And to be clear, a good job 
and a safe job are not mutually exclusive. We can have both. I am proud 
and humbled to lead the Department of Labor in this critical work.
    We have a lot of work to do at the Department. Too many Americans 
struggle to get by. Too many Americans have seen good jobs in their 
communities disappear. Too many Americans see jobs that are available, 
but require skills that they do not possess. We at the Department look 
forward to working with you in the Legislative Branch to fulfill the 
Department of Labor's critical mission: to foster, promote, and develop 
the welfare of our Nation's workers, job seekers, and retirees.
    The Administration is committed both to fiscal responsibility and 
to restoring the Federal Government to its proper role. We are going to 
do more with less and we are going to focus the Department of Labor on 
its core mission by making smart investments in programs that work. The 
Budget makes hard but responsible choices: it eliminates programs that 
are less effective or less efficient, and dedicates taxpayer dollars to 
programs that we know are successful.
    Our American economy has changed rapidly and has left many 
Americans behind. Our unemployment rate is now at 4.3 percent, a 16-
year low. Nonetheless, we have 6.9 million Americans who are 
unemployed. The good news is that we have 6.0 million job openings. We 
can get most Americans back to work if we can match those who are 
looking for work with available jobs. But businesses report difficulty 
hiring workers with the right skills for jobs they need to fill. There 
is a mismatch between the needs of employers and the skills of 
jobseekers. We need to close this skills gap. We need to do so within 
an overall budget that respects the Administration's commitment to 
fiscal responsibility and to national security.
    As part of this approach, the Budget prioritizes the programs that 
do work. It includes a total of $130.0 million for Reemployment 
Services and Eligibility Assessments, an increase of $15.0 million. 
These assessments are proven to help unemployed Americans get back to 
work more quickly and at higher wages. They also save taxpayer dollars. 
A recent study showed that by getting Americans back to work more 
quickly and reducing improper payments, this approach saved an average 
of $536 per claimant in unemployment insurance benefit costs, 
demonstrating its potential for real savings for American taxpayers.
    We need to make better efforts to align job training with the 
skills the market demands. The evidence tells us that effective Federal 
job training programs prepare job seekers for high-growth jobs that 
actually exist. One approach to preparing workers for these high-growth 
jobs is apprenticeship, a proven strategy for raising trainee 
employment rates and wages. High quality apprenticeships enable 
employers to be involved in the training of their future workforce so 
they can be sure new hires possess the skills needed to do the job. 
Apprentices receive wages and, just as importantly, skills that enable 
them to thrive in today's workforce. Apprentices earn nationally 
recognized certificates of completion leading to long-term career 
opportunities. Many Registered Apprenticeship programs also afford 
apprentices the opportunity to earn college credit towards a degree.
    Getting Americans back to work also requires eliminating programs 
that are less effective at helping Americans get jobs. There are many 
programs intended to help Americans find or train for jobs, but some of 
them are duplicative, unnecessary, unproven, or ineffective. The 
Department is committed to streamlining or eliminating programs based 
upon a rigorous analysis of available data to assess programmatic 
effectiveness. The Department also believes that giving States more 
flexibility to administer DOL resources in a way that best suits their 
needs is another way to ensure DOL resources are used as efficiently 
and effectively as possible.
    The Department is also seeking to reduce burdens on taxpayers and 
increase efficiencies by requesting authority to establish and retain 
fees to cover the operating costs for foreign labor certification 
programs, which serve to ensure that foreign workers brought in under 
work-based visas do not displace or undercut the wages of American 
workers. Once the fee structure is fully implemented, only the 
employers who want to bring in foreign labor will pay for these 
programs. This is fair. This will allow for a more reliable, workload-
based source of funding that removes the taxpayer from footing the bill 
and ultimately eliminates the need for appropriations. This proposal 
allows for timely processing of labor certifications that will proceed 
in parallel with the Department efforts to ensure that foreign labor 
does not illegally displace American workers. This approach is 
consistent with the Department of Homeland Security's management of the 
foreign labor programs and is crucial to protecting American workers.
    Too many Americans are faced with the difficult choice between 
caring for a new baby and getting back to work to earn a paycheck. The 
Administration believes this is a choice parents should not have to 
make, which is why the Budget delivers on the President's promise to 
provide paid parental leave. The Budget includes a fully paid-for 
proposal to establish a Federal-State paid parental leave benefit 
program within the Unemployment Insurance program that will provide 
mothers and fathers, including adoptive parents, with six weeks of 
benefits after the birth or adoption of a child.
    The Department believes that a vast majority of employers across 
the Nation are responsible actors, fully committed to following worker 
protection laws and to providing good and safe jobs for their 
employees. However, these laws can be complex. The Department has 
placed a priority on helping American employers understand and remain 
in compliance with worker protection laws. The Budget includes funding 
increases of $16.6 million to the Department's worker protection 
agencies to support this goal. When the Department collaborates and 
works in partnership with employers, compliance with labor laws 
increases and American workers benefit.
    Compliance assistance to the employer community is vital. The Wage 
and Hour Division (WHD), the agency that enforces laws establishing 
minimum standards for wages and working conditions, has developed 
compliance assistance tools through engagement with industry leaders 
and the employer community. The Budget includes an additional $3.0 
million for WHD to expand upon this work and perform compliance 
assistance projects to further educate employer groups and industry 
associations on how to comply with the law.
    The Occupational Safety and Health Administration (OSHA) ensures 
safe and healthful working conditions for working men and women by 
setting and enforcing standards and by providing training, outreach, 
education, and assistance. The Budget supports the Department's 
emphasis on compliance assistance and provides an additional $4.0 
million for OSHA's Federal compliance assistance activity. This 
investment will allow OSHA to broaden its assistance and support to 
employers who are trying to best protect their workers.
    The Employee Benefits Security Administration (EBSA) ensures the 
security of the retirement, health, and other workplace related 
benefits of America's workers and their families. EBSA's enforcement 
authority extends to an estimated 685,000 private retirement plans, 2.2 
million health plans, and a similar number of other employee welfare 
plans which together hold $9.3 trillion in assets. These plans provide 
critical benefits to America's workers, retirees, and their families. 
Our experience indicates that the volume and complexity of Employee 
Retirement Income Security Act (ERISA) disclosures can be overwhelming 
for some participants and beneficiaries. Complying with ERISA's 
disclosure requirements and effectively communicating with employees 
can be a particular challenge for small businesses that may not have a 
dedicated human resources department with employee benefits 
specialists. The Budget includes a $1.3 million funding increase to 
improve the quality, readability, and delivery of ERISA disclosures to 
people in plans sponsored by small businesses.
    The Budget provides $46.6 million for the Office of Labor-
Management Standards (OLMS) to administer the Labor-Management 
Reporting and Disclosure Act (LMRDA) and related laws, which establish 
safeguards for labor union democracy and financial integrity. The 
fiscal year 2018 funding level re-establishes the International 
Compliance Audit Program, through which OLMS will audit and provide 
technical guidance and assistance to International Union officials to 
achieve compliance with the LMRDA.
    The Office of the Solicitor (SOL) will support the execution of 
these priorities. The Budget provides SOL with $2.2 million to support 
these compliance assistance initiatives by providing legal advice 
regarding establishing new compliance assistance programs, developing 
public- facing materials, preparing and conducting internal training 
programs, responding to inquiries, and defending legal challenges that 
may arise in response to these programs.
    The Administration is committed to moving the Nation toward fiscal 
responsibility and restoring the Federal Government to its proper role. 
The Department will focus on work that furthers the Department's 
mission, and the Budget makes long overdue changes to move in that 
direction.
    These changes include sensible budget reductions, organizational 
changes to reduce operational costs, and the elimination of unproven or 
duplicative activities.
    Some of those changes mean moving programs from the Department of 
Labor. Where there is duplication throughout the government, programs, 
offices, and agencies can and should be consolidated to increase 
efficiency. For this reason, the Budget proposes to consolidate the 
Office of Federal Contract Compliance Programs (OFCCP) with the Equal 
Employment Opportunity Commission (EEOC). This commonsense change 
combines two civil rights agencies that already work together closely.
    Other commonsense changes involve refocusing the Department's 
agencies on their core missions. For the Bureau of International Labor 
Affairs (ILAB), that means focusing the agency on ensuring that U.S. 
trade agreements and preference programs are fair for American workers. 
In addition to their reporting requirements on international child 
labor and forced labor and their charge to represent U.S. interests in 
international settings like the International Labor Organization, ILAB 
has a critical role to play in leveling the playing field to make sure 
that other countries are not undercutting American workers by violating 
trade commitments. The Budget eliminates ILAB's new grants programs as 
we ask other countries to invest more in these areas, saving America's 
taxpayers $67.5 million.
    The Budget refocuses the Office of Disability Employment Policy 
(ODEP) by investing agency resources in an initiative that is based on 
a program with demonstrated success: the State of Washington's Centers 
of Occupational Health and Education program, which is part of its 
workers' compensation program. ODEP's investment builds on a model 
proven to increase labor force participation of individuals with 
injuries and disabilities. The demonstration project, which will be run 
in partnership with the Social Security Administration, will test the 
effects of implementing key features of the model in other States or 
municipalities for a broader population.
    The Department also proposes sensible reforms for the Pension 
Benefit Guaranty Corporation (PBGC). PBGC acts as a backstop to insure 
pension payments for workers and retirees whose companies and pension 
plans have failed. The Budget proposes premium reforms for the 
multiemployer insurance program that will improve the solvency of the 
program.
    These commonsense changes will restore the Department to a focus on 
its core mission, save taxpayer resources, and increase the 
Department's effectiveness by investing in programs known to have a 
meaningful impact on American workers.
    Americans want good and safe jobs. The Department is here to 
support Americans' desire to hold these jobs. The Budget restores the 
Department to this fundamental mission, investing in programs that we 
know are successful. The proposals are evidence-based and reflect the 
seriousness with which the Administration is taking its 
responsibilities.
    We look forward to working with Congress on these important goals.

    Senator Blunt. Well, thank you, Mr. Secretary.
    So we will have a 5-minute round of questions. I am sure 
there will be time for a second round if people have more than 
5 minutes of time to use. So if you would stay pretty close to 
that. And I know the Chairman is here and has some questions. 
So I will ask my questions after Senator Kennedy. I will come 
near the end.
    Senator Cochran. Thank you, Mr. Chairman.

              REBUILDING THE GULFPORT, MS JOB CORPS CENTER

    Mr. Secretary, I understand the Department is close to 
finalizing a memorandum of agreement with the City of Gulfport 
regarding the rebuilding of the Job Corps center in Gulfport, 
Mississippi. Can you update us on the status of that situation 
and share with the Committee the estimated completion on the 
Gulfport Job Corps center?
    Secretary Acosta. Mr. Chairman, I appreciate the question. 
The Department remains committed to serving the youth of the 
Gulfport community, and we appreciate the support you have 
offered as it has been very important as DOL (Department of 
Labor) moves forward.
    As you mentioned, we are working with the consulting 
parties to develop the memorandum of understanding 
memorializing the plan that has been discussed. We anticipate 
that that MOU (memorandum of understanding) will be signed 
sometime this summer most likely, possibly within the next 60 
days, and that it will be followed by the design and then 
construction phases assuming that the budget allows us to go 
forward. And if you would like, I am more than happy to ensure 
that the Department keeps your staff up to date with the 
progress as those discussions continue.
    Senator Cochran. Thank you. We would appreciate that.

           IMPACT ON DOL REGULATION ON BUSINESSES AND SCHOOLS

    Let me also ask you to share with the Committee the number 
of Mississippi businesses and schools that have expressed 
concern about over-burdensome and costly regulations, including 
overtime, joint employer and fiduciary rules that have been 
issued by the Department. What is the Department doing to 
evaluate complaints, particularly those that are small 
businesses in rural areas of our State? What are you doing to 
take steps, if any, to alleviate concerns about burdensome 
regulations by the previous administration?
    Secretary Acosta. Mr. Chairman, I do not have the precise 
number of businesses and schools that have sent letters to the 
Department. But I will say this. The Department has received 
correspondence from many businesses not only in Mississippi but 
around the Nation regarding the burden on regulations. And the 
Department is examining the regulations that are currently on 
the books. The Department is working to ensure that the 
regulations that are presently in effect are necessary. To the 
extent that some are outdated or unnecessary, the Department 
will look at those regulations and determine how to proceed.
    Senator Blunt. Thank you, Chairman.
    Senator Murray.
    Senator Murray. Thank you very much.

            NEW HEALTHCARE BILL IMPACT ON RURAL COMMUNITIES

    Secretary Acosta, as you know, I am deeply disappointed, as 
many are, that Trumpcare is planned to be jammed through the 
Senate this week. Obviously, from the CBO numbers, millions of 
people are going to lose their health insurance. Costs are 
going to rise.
    But as you probably know, this is going to have a 
devastating impact on jobs as well across the country. In our 
rural communities where a lot of our rural hospitals are 
telling us that because of the loss of dollars, they will 
likely shut their doors or become much smaller, as well as the 
number of nursing homes that are telling us of the devastating 
impacts.
    Have you shared with the President any of those job loss 
numbers?
    Secretary Acosta. Senator Murray, I do not have at present 
specific job loss numbers with respect to the healthcare 
industry.
    But let me say this more generally. I think the issue is a 
little more complicated and a little more subtle because at the 
same time that some jobs may be reduced, many other jobs may be 
created. One concern that we have heard from employers is the 
financial burden imposed by high healthcare costs.
    Senator Murray. I have not seen any analysis that shows a 
job increase as a result of this bill. And I think that what we 
are hearing--a lot of us--is the job losses. To me that is 
really deeply disconcerting. So I hope your agency is sharing 
that with the President.

                     CUTS TO JOB TRAINING PROGRAMS

    Let me ask you about the job training cuts because a few 
weeks ago, President Trump signed an executive order 
commemorating Workforce Development Week. What we see in your 
budget is it slashes workforce programs by more than $2 
billion. Those are programs that help millions of workers find 
jobs every year, the same workers the President promised to 
support.
    Experts estimate that your cuts would mean 9 million adult, 
youth, and dislocated workers and veterans will lose access to 
job training and States would lose over $1 billion in direct 
support for worker training. That is a 40 percent cut to the 
Nation's job training system that Governors are telling us that 
they cannot absorb.
    So I am really disappointed that these are in here. I have 
heard you say that they are duplicative and ineffective, but 
not only did Congress streamline training programs when we 
wrote the Workforce Innovation and Opportunity Act, but 
evidence now shows that 80 percent of the adults find jobs 
after training. So tell me why this major cut is in this after 
Congress worked really hard, streamlined the bill, cut out the 
ineffective things, and did so in a partisan way? And now your 
budget cuts all the support for that.
    Secretary Acosta. Well, Senator, thank you for the 
question.
    And let me begin by thanking Congress for its prior work 
because WIOA was a bipartisan bill that took several important 
steps both in streamlining programs and in returning to the 
States funding so that States could work with greater 
flexibility.
    The current budget proposes to further increase that 
flexibility to the States in how they can allocate their money, 
which is an important action. Ultimately Governors and 
localities are those that can provide--that can best focus the 
money within their jurisdictions.
    Senator Murray. Well, Governors are telling us nationwide 
that they do not support this cut to these investments in job 
training. They say they do not have the ability to make up the 
Federal dollars in their own budgets. They do not support this 
budget.
    Secretary Acosta. And so as I was saying, Senator, I 
understand. And so flexibility is certainly important. As the 
Chairman indicated, the budget certainly and historically the 
proposals have looked to reduce the spending because ultimately 
as a Federal Government, we need to find ways to reduce 
spending. There are taxpayer dollars. I am certainly willing to 
work with the Committee as the Committee looks at this more 
closely to discuss priorities and to discuss how to best 
proceed with respect to this budget.
    Let me say one last thing. As a general rule, I think 
sometimes there is a tendency--and we all want metrics and we 
all judge success based on the level of spending. I see this in 
universities where universities sometimes judge their success 
by expenditures per student.
    Senator Murray. Nobody is trying to do that here. What we 
have done and want to continue to do is invest in jobs in those 
communities to give people skills they need, and this budget 
does not do it. And I am out of time, but I have to tell you 
this is not about dollars increase. This is about major cuts to 
people and their inability to get the skills they need.
    Senator Blunt. Thank you, Senator Murray.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.

                DEPARTMENT OF LABOR SUB-CABINET NOMINEES

    Democrats have set some records for delaying President 
Trump's cabinet nominees, but President Trump is setting some 
records for not sending up sub-cabinet nominees for us to 
consider. President Obama had sent 10 Department of Labor 
nominees by now. President Bush had sent nine. President Trump 
has sent two. We have one nominee for the NLRB (National Labor 
Relations Board). We have not gotten the other one. When are we 
going to get some more nominations for your Department?
    Secretary Acosta. Well, Senator, Mr. Chairman, I appreciate 
the question.
    I can say this. I am approaching my own 60-day mark as 
Secretary. And I have set it as a personal goal to have the 
vast majority of my sub-Department leadership identified and in 
clearance by the 60-day mark. I believe that that goal is 
something that can be reached. And then ultimately they do have 
to go through background check and clearance.
    Senator Alexander. I know, but I just would urge the White 
House, the President, and you to--I mean, this is the Senate's 
opportunity to confirm, to vet, to question these nominees. We 
want to do that. We can move them quickly through the Committee 
if you would do it.

                   DEPARTMENT OF LABOR OVERTIME RULE

    Let me go to a second topic. I will not ask you to respond 
to this. I just want to give you my opinion to consider on the 
so-called overtime rule. That was a bad rule. Here were the 
problems with it. The rapid rate of increase. The salary 
threshold was set to double overnight. The top number was 
$47,000, just too high for many parts of the country, and I 
think it would be wise to consider a different top level for 
different parts of the country. It caused enormous harm to 
nonprofits, especially colleges and universities who are 
telling me they would have to raise tuition by large amounts to 
accommodate it. It included annual increases with only 2 
months' notice. Now, annual increases might be a good idea, but 
not with 2 months' notice.
    So I would urge you to show us how to write a good overtime 
regulation as you consider this, one that takes those issues 
into account. And there are thousands and thousands of 
colleges, universities, Boy Scout troops, and businesses that 
hope you will do the same.

                   EXECUTIVE ORDER ON APPRENTICESHIP

    Now, my question is about your apprenticeship order. I 
salute your interest in that and the President's interest in it 
and look forward to supporting it. I have one question about 
it. The executive order allows you to deny access to the 
expansion of the apprenticeship program for certain sectors 
that already have effective and widespread apprenticeship 
programs. Is that directed at the construction industry? Do you 
plan to exempt the construction industry from your executive 
order?
    Secretary Acosta. Senator, thank you for the comments and 
the questions.
    First, let me say, going to your earlier comments that this 
morning the Department of Labor transmitted to OMB (Office of 
Management and Budget) a request for information regarding the 
overtime rule. Once approved by OMB, that request would ask the 
public to comment on a number of questions that would inform 
our thinking with respect to many of the issues that you 
raised.
    Now, moving to the President's executive order, the 
President is well familiar with apprenticeships, particularly 
in the building trades, and is aware of the success of 
apprenticeships in the building trades.
    Senator Alexander. But the Associated Builders and 
Contractors say there are 500,000 unfilled jobs for skilled 
construction workers. Why would you consider exempting the 
construction industry, if you are?
    Secretary Acosta. So, Senator, if I can then comment on 
that. And so the executive order provides the Secretary of 
Labor with discretion to look at particular industries, and if 
the current program is effective and widespread, it is a do no 
harm provision where if a program is currently working and 
would not benefit from wider expansion, then there is 
discretion to not fix what is not broken. And so regulations 
will have to be presented that implement that, and those 
regulations would govern how that particular provision----
    Senator Alexander. I understand that. But do you have an 
intention to exempt the construction industry at this moment?
    Secretary Acosta. Senator, I have an intention to create 
regulations that will provide rules for the road on how that 
provision will be adopted.
    Senator Alexander. Well, I have 9 seconds, but in that 9 
seconds, if there are 500,000 unfilled jobs for construction 
workers today, I would hope that would be evidence that there 
is room for apprenticeship programs in the construction 
industry.
    Secretary Acosta. We would agree.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Alexander.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. Thank you for your 
good work.

              BUREAU OF LABOR STATISTICS UNEMPLOYMENT DATA

    Many people from this administration have attacked the 
Bureau of Labor Statistics as phony, fictitious, and a hoax 
when they do not like the data that is presented to them. For 
instance, at a rally in Iowa last December, the President-elect 
said the unemployment number, as you know, is totally fiction. 
And a few months earlier, he says you hear a 5 percent 
unemployment rate. It is just a phony number. This March, the 
OMB Director Mulvaney even accused the Obama administration of 
manipulating the numbers to make the unemployment rate look 
smaller.
    These are really dangerous attacks on government generally 
and your Department in particular. I know you are a data-driven 
leader, and so I want to ask you. The Bureau of Labor 
Statistics has existed for more than 130 years to provide 
independent, unbiased, and rigorous data on employment levels 
in the country. Lawmakers use it for policymakers. Journalists 
and researchers use it to accurately inform the public, and 
these attacks degrade the public trust.
    And so I want to give you as much leeway as possible 
because I understand you work for the Trump administration. So 
this is not a set-up question in order to get you sideways with 
any member of your administration. But I would like to hear 
from you what you think about the Bureau of Labor Statistics, 
their accuracy not just under your leadership but over time.
    Secretary Acosta. Senator, I appreciate the question. And 
let me, I guess, make three points.
    First, all the statistical agencies within the government, 
not just the Bureau of Labor Statistics, but there are several, 
about a half a dozen statistical agencies, serve an incredibly 
important role. And in fact, they have particular protections 
that are given them by OMB to safeguard them from 
administration to administration, and those are important 
protections because the data that they produce is used over 
time by researchers in setting policy. And I think it is very 
important to protect the integrity of that data.
    One of the issues coming out of BLS (Bureau of Labor 
Statistics) is there are actually six measures of unemployment 
that BLS produces, at least six, and then several sub-measures, 
some of which are more narrow and some of which are broader. 
And so sometimes when folks refer to the unemployment rate, 
which as I just did earlier today, of 4.3 percent, I was 
referring to the U3 figure. There is the U6 figure, which is 
much broader, which is about 8.4 which includes underemployment 
generally. And then we have the labor force participation rate, 
which unfortunately keeps dropping, and just from demographic 
changes, just from the aging of America, would drop by 
approximately .3 percent per year if we do not do more to bring 
folks into the labor force.
    And so I think sometimes when folks challenge the number, 
what is really going on is that particular numbers measure 
those things they are intended to measure, and they do so 
professionally. But what they measure may not necessarily be 
what is being discussed. And so we have a very low unemployment 
rate, but we need to get more Americans back to work. And if 
you look at the labor force participation rate, enough 
Americans are not working. They have given up. And so the 
multiplicity of numbers can sometimes create confusion.
    Senator Schatz. So I would just ask--and I understand that 
point, giving the benefit of the doubt to some of the political 
leaders who characterize the numbers in a way to make their 
point and sometimes a valid point, sometimes a point in the 
context of an election. But that is all fair game.
    What I want to be assured of is that the Secretary of Labor 
stands up for not just his Department and not just BLS but 
generally for the agencies that collect data because there is 
something more insidious going on. If the only point that is 
being made is, hey, look, it is a low unemployment rate but 
that does not tell you the whole story, fair enough. But if 
people are being told by their leaders at the highest level 
that the government is lying to them, that is a whole different 
proposition, and it is your job to stand up for the people who 
create these data sets.
    Secretary Acosta. I deeply respect the integrity and the 
importance of data sets. They set policy. They are used by 
Senators like yourself and others here. And I hear your point.
    Senator Schatz. Thank you.
    Senator Blunt. Thank you, Senator Schatz.
    Senator Lankford.
    Senator Lankford. Thank you.
    Good to see you again. Glad you are here. Thanks for your 
continued service.

                        JOINT EMPLOYER GUIDANCE

    Can you give me some insights on the path forward on joint 
employer, on the definition, where things are going in the 
ongoing conversation with the Department of Labor?
    Secretary Acosta. Senator, I can certainly do so.
    The Department of Labor has withdrawn the guidance that had 
been previously issued on the joint employer. That guidance had 
been issued in January 2016 and discussed the agency's 
rejection of the common law concepts. So that guidance is no 
longer in effect within the Department of Labor now.
    The National Labor Relations Board, as the Senator is 
aware, does not come within the Department of Labor's 
jurisdiction. Chairman Alexander earlier referenced the 
National Labor Relations Board and pending nominations. As the 
National Labor Relations Board fills, I would suspect that that 
is an issue that they will have to take up and decide how to 
proceed.
    Senator Lankford. Great. So everything is on hold at this 
point pending that.
    Secretary Acosta. Well, at the Department of Labor, the 
guidance has been withdrawn, and so that is the portion of that 
issue that is within the jurisdiction of the Department of 
Labor.

                             FIDUCIARY RULE

    Senator Lankford. I am talking about the fiduciary role in 
the conversation because this is another one you have to have 
cooperation with that other entity, with the SEC to be able to 
try to figure out how this is going to work. Where is that 
conversation right now?
    Secretary Acosta. And so previously the SEC did not work 
jointly with the Department of Labor. As I indicated quite 
publicly, I think that the SEC has important expertise and that 
they need to be part of the conversation. And I asked the 
Chairman of the SEC (Securities and Exchange Commission) if the 
SEC would be willing to work with us, and the Chairman 
indicated his willingness to do so. And it is my hope, as the 
SEC also receives a full complement of commissioners that the 
SEC will continue to work with the Department of Labor on this 
issue.

                 ENFORCEMENT AND COMPLIANCE ASSISTANCE

    Senator Lankford. You mentioned in your opening statement 
about enforcement, and this Committee, I would tell you, would 
expect that, that if there are safety issues, we do want to be 
able to maintain enforcement. The law is there for a reason. It 
will not be able to maintain it.
    But you go back as far as the Clinton administration when 
Al Gore led an effort across the Nation working with regulators 
to try to bring down the tone of the regulators and those 
inspectors that are coming in. I hear pretty consistently that 
folks used to come in to help us. Now they come in to fine us, 
especially from small businesses, and the abundance of new 
regulations that have come in in the last several years. They 
ask a simple question: can we have some mercy? If we miss 
something, come tell us we missed something, but do not come in 
with a fine book immediately. Come in with a warning.
    So I would ask only--and we can work through this in the 
days ahead. I have a bill that actually deals with this issue 
specifically to mandate it, but especially for small 
businesses. They miss something. They do not have an attorney 
on staff. They do not have compliance people on staff. They run 
their business. And it is extremely helpful if the attitude of 
enforcement individuals come in to help people rather than just 
to be able to fine.
    Do you have any comment on that?
    Secretary Acosta. I do, Senator. At the same time that I 
raised the point about enforcement, in the paragraph before 
that, I talked about compliance assistance. And the point that 
I was making is that compliance assistance I think is very 
important. We need enforcement to go hand in hand, but 
compliance assistance, at the end of the day, I believe can 
bring about sometimes greater compliance. When I was United 
States Attorney, I would talk to chambers, and I said, look, we 
can prosecute cases, but preventing wrongdoing in the first 
place is more successful. Is it not better to have a traffic 
light that prevents accidents rather than give people tickets 
after the accident has occurred?
    And so the current budget actually requests an increase in 
the compliance assistance program within OSHA (Occupational 
Safety and Health Administration), for example. And just this 
morning, the Department also announced the return of opinion 
letters within the Wage and Hour Division. Opinion letters had 
been in use for 70 years up until 2010, and they are a 
mechanism by which small businesses or others can write and ask 
a question, how does this work, because sometimes they do not 
know the answer. And so those opinion letters had been 
discontinued, and we announced this morning that we are 
reinstating those opinion letters.
    Senator Lankford. Terrific.
    Are you doing any kind of shuffling within your own staff 
or to be able to look at to make sure that you have people in 
the right spots? Because when you deal with inspectors and all 
these different things, as industries rise and fall, sometimes 
you can end up with the wrong people that are covering an area 
that has declined. For instance, no grand secret. There are a 
lot of coal mines that have closed. If we have a large number 
of inspectors still out there with coal mines that are closing, 
that becomes an issue. It is something EPA and BLM faced 
several years ago, having a whole crew of people studying coal 
bed methane, and we are not using it anymore. So I would just 
encourage you to be able to take that on in the days ahead.
    Secretary Acosta. Thank you, Senator.
    Senator Lankford. Thank you.
    Senator Blunt. Thank you, Senator Lankford.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.

                  IMPACTS OF UPCOMING HEALTHCARE BILL

    I think one of the reasons that the healthcare bill that is 
about to be pending before the Senate is so stunningly 
unpopular is that the President, your boss, talked consistently 
during the campaign and after the campaign about a healthcare 
reform bill, a repeal of the Affordable Care Act that would not 
cause anyone to lose insurance. Promises were made over and 
over again that more people would be insured after this process 
was finished than under the Affordable Care Act. And CBO 
confirmed again yesterday that under the Senate bill, 22 
million people across this country, the equivalent population 
of 16 U.S. States, would lose their healthcare insurance.
    And speaking to your portfolio, Mr. Secretary, the effect 
is on individuals with employer-sponsored healthcare and those 
who are getting their insurance through other means. There is a 
recent article in the Atlantic. The headline is ``How the GOP's 
Health Care Bill Would Affect People Insured Through Work,'' 
and the sub-headline is ``Fewer People Would Sign up for 
Employer-Sponsored Plans and Fewer Employers Would Offer 
Coverage.'' Millions of people would lose employer-sponsored 
healthcare according to the CBO estimates.
    And so given the promises that were made by many of my 
colleagues and by the President himself, I guess I just have a 
pretty simple question for you. Do you think that the purpose 
or the outcome of healthcare reform should be to insure more or 
less Americans?
    Secretary Acosta. Senator, healthcare reform--and as we are 
looking at this healthcare bill, we are asking how can we go 
forward as a Nation with a bill that respects individual 
choice. Senator Murray raised a question around healthcare as 
well. And as we are looking at the workplace, one issue that 
certainly I think we need to consider is what does this do in 
terms of jobs, and does the multiplicity of expenses that are 
put on employers create a disincentive to hire. And so 
certainly we need to respect individual choice, and we also 
need to consider whether we are going to be creating jobs by, 
in fact, reducing the costs of many of these programs that do 
place burdens on the economy as a whole.
    Senator Murphy. But just let me restate the question. 
Insurance is really important to people. They prefer jobs that 
have insurance. Do you think that the purpose of healthcare 
reform should be to insure more people or less people?
    Secretary Acosta. Senator, again, the purpose of healthcare 
reform is to ensure that individuals have access to insurance 
choice. And I guess I push back because sometimes there is an 
effort to measure based on how much we spend or how many people 
are covered rather than to measure based on are folks getting 
jobs or are we respecting individuals' choices. And so I do 
think it is important to provide individuals with choice.
    Senator Murphy. But you are not suggesting that of the 22 
million people that will lose insurance, the majority of those 
people are choosing to lose insurance.
    Secretary Acosta. What I am suggesting is that we have a 
healthcare system that imposes a number of mandates and that is 
as a Nation getting increasingly, increasingly expensive. And I 
am encouraging Congress to work to address those issues. I 
think it is one of the most important issues that we are 
facing. Healthcare is becoming more costly. Individuals are 
finding that they cannot afford what is, in essence, a broken 
system, and I think it is very important that it be addressed 
in a way that makes it effective in the long term.
    Senator Murphy. I appreciate your comments.
    I will just say for the record CBO does not come to the 
conclusion that 23 million people, 22 million people are going 
to lose coverage because they are exercising their right to 
decline coverage. They admit that there will be a small portion 
of healthy individuals who may choose to go without healthcare, 
but they also come to the conclusion that the vast bulk of that 
22 million are losing healthcare because they simply cannot 
afford it because the costs, under the Republican healthcare 
bill, will spiral, 20 percent premium increases in the first 
year, 400 percent premium increases for older Americans such 
that it is completely and totally unaffordable.
    So I understand your comments about choice. That is not 
what CBO says is the main cause of why these numbers are 
absolutely catastrophic.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Murphy.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Secretary, I think that is exactly what the CBO report 
says.

                     APPRENTICESHIP EXECUTIVE ORDER

    Let me go back just quickly to a question that Senator 
Alexander asked you because I am not sure about the answer. The 
President's executive order, which I applaud--do you plan to 
exempt the construction industry from it?
    Secretary Acosta. Senator, the President's executive order 
provides discretion to the Secretary of Labor to enact 
regulations that will guide decisionmaking in whether----
    Senator Kennedy. Mr. Secretary, I got that part. You going 
to issue regulations. Are those regulations going to exempt the 
construction industry?
    Secretary Acosta. Senator, under the Administrative 
Procedure Act, I need to issue regulations. I would then need 
to apply those regulations to a particular fact pattern.
    I will say this. The President is looking to expand 
apprenticeships across all industries. The President is looking 
to expand apprenticeships both in breadth and scale.
    Senator Kennedy. Mr. Secretary, I understand all that, and 
I appreciate it. I am really not trying to be rude, but we are 
given 5 minutes. If you do not want to answer the question, 
just tell me.
    Secretary Acosta. Senator, I am trying to answer the 
question, and my point is that the President's executive order, 
to the extent something is working, does not want to disturb 
it; to the extent something is not working, is looking to 
expand it. And that will have to be determined.
    Senator Kennedy. I get it. Let us move on.

                PROPOSED CUTS IN FISCAL YEAR 2018 BUDGET

    When you became Secretary, did you find waste in your 
budget?
    Secretary Acosta. Senator, there are certainly ways of 
reducing and saving money within any agency. Yes.
    Senator Kennedy. Well, you cut $2.6 billion out. Right? 
Your budget. Am I right on that?
    Secretary Acosta. Senator, the budget request does seek a 
reduction of $2.6 billion.
    Senator Kennedy. Do you support all of those cuts?
    Secretary Acosta. Senator, I acknowledge that we as a 
government need to reduce spending, and so I do think it is 
important that we reduce the spending. Yes.

            COMMUNITY SERVICE EMPLOYMENT FOR OLDER AMERICANS

    Senator Kennedy. I do too. I agree with you on that.
    We are spending $434 million on the Senior Community 
Service Employment Program. Could you briefly tell me what that 
does?
    Secretary Acosta. Senator, there are a number of programs 
within the Training and Employment Services budget, and over 
time, different areas have developed programs of their own. One 
of the things that we are looking to do is to streamline the 
different programs so that they----
    Senator Kennedy. What does that program do, Mr. Secretary?
    Secretary Acosta. So the Senior Community Services 
Employment Program is to some extent--as many as one-third of 
participants----
    Senator Kennedy. Well, let me put it this way. Does it 
exist to transition seniors into unsubsidized employment?
    Secretary Acosta. Yes, it does, Senator.
    Senator Kennedy. Okay. That was easy.
    Why do we need to spend $434 million to do that?
    Secretary Acosta. Well, Senator, as I was saying, there are 
number of programs that have developed over time focused on 
different groups within our country. And those programs are all 
important. But we can merge them, streamline them, and make 
them part of larger programs. And so one of the things that the 
budget looks to do is to streamline. There are well over 40 
different job training programs within the administration, and 
merging those would be a cost saving measure.
    Senator Kennedy. Look, I agree with you. I am on your side, 
Mr. Secretary. You have been here a long time, a lot longer 
than I have. But I observe it over a good portion of 
Washington. I cannot find the money tree. Maybe it is in a 
warehouse somewhere. I mean, the topic de jure is healthcare, 
which is extraordinarily important for our country. Nobody 
would deny that. But the question is not should we add more 
people or less people. The question is how many people can we 
afford to insure with the amount of taxpayer money that we 
have.
    And I appreciate your approach, and I appreciate the 
President's approach because that is what is being lost in all 
this debate. We are borrowing $1 million a minute to run this 
place, $1.4 billion a day. And I listen to people say add this, 
add that like we were spending West Virginia ditch water 
instead of taxpayer money.
    So I find your approach refreshing. I thank you for it. I 
was not trying to be rude. I am just trying to get within my 5 
minutes. Well, thank you, Mr. Secretary.
    Secretary Acosta. Thank you, Senator.
    Senator Blunt. And we assume there is more value to West 
Virginia ditch water than other ditch water. So that is all 
good.
    Senator Durbin.
    Senator Durbin. Secretary Acosta, thank you for joining us.

                  CUTS TO YOUTH JOB TRAINING PROGRAMS

    We have got a problem in Chicago, gun violence. It is 
primarily among young people, primarily minority populations.
    We also find something else. There is a 40 percent out of 
school and out of work rate among young blacks in Chicago. 40 
percent. 20 percent or higher in Latino populations.
    And we find something pretty amazing. If we can get many of 
these young people in a job, trained for a job, it does amazing 
things. It changes their lives. I am not making it up.
    A few weeks ago, I went to the Urban League office and met 
with Curtis Martin. Curtis Martin is exhibit A in what you 
would expect to turn out to be a gang banger, eventually in 
prison, but he is not. And it is because he got in a program 
financed by the Federal Government that got him into a job. He 
is working nights at UPS. It is not easy work, but he is damn 
proud of it and he told us that. And he is talking about going 
back to school now. It is a good thing.
    Now I look at your budget, and you are cutting the 
Department of Labor's budget by 20 percent.
    You know, the President noticed the violence in Chicago and 
tweeted about it on a couple occasions. I would like to read to 
you what the President said. January 24th, if Chicago does not 
fix the horrible carnage going on, 228 shootings in 2017 with 
42 killings, up 24 percent from 2016, I will send in the feds.
    Then February 23rd the President tweeted. Seven people shot 
and killed yesterday in Chicago. What is going on there? 
Totally out of control. Chicago needs help, the President 
tweeted.
    How does a cut in a program like the one that helped Curtis 
Martin help Chicago?
    Secretary Acosta. So let me say a few things, Senator.
    First, I appreciate your point, as U.S. Attorney, I took 
steps to address gun violence using prosecutions. But one of 
the points that I made is ultimately prosecutions are not the 
solution. We need to find jobs and we need to encourage young 
people to graduate high school and to have skills. And that is 
something that I talked about greatly.
    Just in the past week, I had the opportunity to meet with 
workforce development councils at the National Conference of 
Mayors, and then I met with local officials at NALEO, the 
National Association of Latino Elected Officials. And later 
this week, I am going to be meeting with representatives of 
some other groups, many of whom face similar issues with 
economically challenged regions. And my message to all of them 
is let us work together. Let us develop apprenticeship programs 
that will focus on these populations because the best thing 
that we can do for them is to provide them a pathway to a job 
by giving them job skills.
    To go to your question, I understand that the budget 
reductions are an issue. And so we are looking at ways that we 
can make the programs more efficient and more effective and 
work with the private sector----
    Senator Durbin. I hate to interrupt you, but I have one 
more question. I am just going to say this. I would like to 
invite you to Chicago. I want you to come to the programs that 
you are proposing are going to be cut. I want you to meet the 
people who are in those programs. When we say send in the feds, 
I can agree with the President. I want to send you in. Come on 
over to Chicago. Take a look at what your programs are doing 
and what the cuts will mean.

                               H-1B VISAS

    The second point I want to make, H-1B visas to allow 
skilled workers to come into the United States if they do not 
displace American jobs. Exhibit A, a pharmaceutical company in 
Chicago. They announced to 150 of their IT workers who had been 
with them for years that they were being terminated--150 
terminated. And here was the deal. They were terminated but 
would get an extra benefit for their termination of 1 week of 
pay for every year of work if they agreed to two things, first, 
that they do not say anything publicly about being fired, and 
secondly, they trained their replacements. Their replacements 
were reportedly H-1B visa holders from India. It turns out tens 
of thousands of the H-1B visas go to a few major outsourcing 
companies in India. What were those H-1B workers going to do? 
They were going to replace the American workers. So these 
pharmaceutical employees were required to train their 
replacements on the job as they walked out the door--the 
Americans walked out the door. And then the jobs were to be 
outsourced to India after these workers were trained.
    The President talked about that in his campaign. He thought 
it was outrageous. I do too, and I think it ought to be 
changed. Senator Grassley and I have a reform bill. But the 
President waited until after the award of H-1B visas this year 
to announce an interagency review which I believe involves your 
Department. How many meetings have you had in an interagency 
review of H-1B visas?
    Secretary Acosta. Senator, may I answer? Let me address 
both your points.
    First, I gladly will join you in Chicago. I think it is 
very important, and I do want to leave Washington and travel 
and understand all the issues facing American workers. So 
gladly.
    With respect to H-1B, we have been talking about this quite 
vigorously. And let me make two points.
    First, I think what happened, as you describe it, is 
offensive, and those are strong words and those Senators that 
have heard me speak before know that for me to use those words, 
it means something. And it is offensive. We have scoured the 
law for options internally on how to address situations like 
those. And unfortunately, our ability is limited.
    But in addition to the larger bill that I am aware of, 
there are some very simple fixes. There is a $60,000 threshold 
in the H-1B area. And it is interesting because Congress talks 
about and I have talked about and responded to questions with 
respect to overtime and others, and I have said life gets more 
expensive. And so when you have a dollar threshold, it should 
be updated over time. But Congress has not updated that $60,000 
threshold over time. If Congress were to update that simply for 
inflation, it would bring it up to well over $80,000. And many, 
if not most, of the situations like you have identified would 
be eliminated because they would not be within--they would be 
below that $60,000 threshold. So perhaps when that was enacted 
way back when, that was an appropriate threshold, but I would 
encourage the Senator to look at that issue because I cannot 
imagine how one explains to an American worker that they have 
to train their foreign replacement and it has happened again 
and again and again.
    Senator Durbin. Thank you.
    Senator Blunt. Mr. Secretary, what you meant there--I think 
what I believe you said was if the amount was updated, they 
would be below the updated $60,000, which would now be 
something close to $80,000?
    Secretary Acosta. It would be above $80,000, and that is 
correct. If I did not say that clearly, that was my error.
    Senator Blunt. I think you may have said they would be 
below the $60,000 threshold, but you meant they would be below 
the updated threshold.
    Secretary Acosta. They would be below the updated. Correct.
    Senator Blunt. That is something to talk about and think 
about.

      HIRE VETS ACT AND GAO REVIEW OF VETERAN EMPLOYMENT PROGRAMS

    Let me ask a couple of veterans questions. One, the 
Congress passed and you have in your Department the Hire Vets 
Act to create some recognition and some standards for employers 
who figure out how to hire vets. Can you speak to that program, 
please. And then the second question on that topic is the 
concerns that GAO (Government Accountability Office) had with 
the current veterans employment efforts being made by the 
Department before you got there. So do you want to talk about 
both of those things?
    Secretary Acosta. Gladly, Mr. Chairman. Let me just say I 
am reminded that Congress has not updated that figure since 
1998, and things certainly have gotten more expensive since the 
1990s.
    With respect to the Hire Vets Act, you know, it is 
interesting because I was very excited when I saw the Hire Vets 
Act because I think it is really important that we recognize 
employers. And I said, okay, so what are we doing for this 
Veterans Day. And I was told that the regulations could not be 
done by this Veterans Day. And I said it cannot take that long 
to possibly write regulations for awards. And so we are 
expediting them.
    But I should also say that the rules call for the requests 
for nominations to go out in January. And so we may not be able 
to do it this year even if we can move the regulations quickly 
because of the very rules in the statute, in which case I may 
take it upon myself just as discretionary authority to give the 
equivalent this Veterans Day because I do not want to wait 
another year and a half to do this.
    Senator Blunt. Good answer. This is sort of like the LEED 
standards recognition you get for energy efficiency. This would 
establish standards for employers in their relationship to how 
they hire vets, what kind of credit they give for training in 
the service, and other things.
    What about the criticism of the current efforts being made 
by the Department for veterans? I think one of the criticisms 
was that there is a lack of transparency with regard to the 
extent for which veterans' employment training services are 
actually meeting performance goals, and there were others in 
that GAO report.
    Secretary Acosta. So, Senator, one of the issues around 
veterans' job services is that they are scattered around the 
executive branch. And one of the issues that we are looking at 
is does it make sense to consolidate them in some way, shape, 
or form. There are at least three different executive branch 
agencies that are responsible for veterans' job education and 
working with veterans, and that does lead to some level of 
confusion.
    I will say this. It is a top priority. These individuals 
served their Nation and they deserve not just to be treated 
with respect, but they deserve to have a job when they arrive 
here.
    Let me just add one additional issue because I know that 
this committee appropriated funds to look at certifications 
among the various States. And one issue that I have been made 
aware of that I think is very important in this area is a 
servicemember can be trained in the Army, for example, to drive 
a commercial truck in Fallujah. Yet, they come stateside, and 
they may not have the ability to drive a commercial truck in a 
particular State because States have different licensing 
requirements. And one of the concerns that I have and one 
question that I have is can we look at ways of working with 
States so that they recognize military licenses and 
certifications.

                         ACROSS-STATE LICENSING

    Senator Blunt. That takes me perfectly to my next question, 
which is in fiscal year 2016 and 2017, this bill included $7.5 
million to continue establishing some sort of consortium of 
States, and certainly at the top of that priority list would be 
skills you learn while serving the country. Right up there with 
that, are spouses that move from State to State as their spouse 
is transferred from one military base to the other. So that 
would be a second criteria, maybe even more important to the 
active service than the first criteria.
    And the third would be, generally, what are we doing so 
that when somebody moves across the river from Illinois to 
Missouri, that they bring those skills with them, that there is 
some reciprocity or understanding of that.
    Again, the Department has been asked 2 straight years now 
to do that. Of course, you were not there, but what are you 
going to do about it?
    Secretary Acosta. Mr. Chairman, the Department has been 
asked. I know that a report is due that has been funded by 
those appropriations this fall. I can tell the Chairman that I 
have been talking with my own staff about this for the last 2 
to 3 weeks since I first learned about it because particularly 
on the veterans side, I do not know how you justify telling 
someone it was okay for you to drive a truck full of explosives 
but it is not okay for you to drive a truck full of Coca-Cola 
or Pepsi. And that is something that is very difficult to 
swallow and something that I certainly think is a priority and 
will commit to working with the National Governors Association 
and others that did receive this funding.
    I know there is a consortium of 10 States that is being put 
together. And I have already talked to my staff about tapping 
into that to make sure that it proceeds as expeditiously as 
possible.
    Senator Blunt. Thank you.
    Senator Graham, then Senator Rubio, then Senator Capito is 
the list I have.
    Senator Graham. Thank you, Mr. Chairman.

                      IMPACTS OF HEALTHCARE REFORM

    You were asked by Senator Murphy about how many people will 
drop coverage voluntarily I guess, for lack of a better word. 
The CBO report indicates to me--maybe I am reading it wrong--
that 15 million people will drop the coverage they have today 
because there will be no fine if they are not covered. Do you 
understand it that way too?
    Secretary Acosta. Senator, I have not--let me say this. The 
CBO report is something that before I comment----
    Senator Graham. Do you know the answer to my question?
    Secretary Acosta. Senator----
    Senator Graham. My question is it is my belief that the CBO 
report says that 15 million Americans will drop the coverage 
they have today because they will not have to pay a fine 
because we eliminate the fine.
    Secretary Acosta. Senator, I will not contest your belief.
    Senator Graham. Well, I may be wrong. But check it out. You 
do not have to answer right now.

                             H-2B VISA CAP

    Are you familiar with the returning worker problem with the 
H-2B visa program against the cap?
    Secretary Acosta. Yes, I am, Senator.
    Senator Graham. You have the authority, as I understand it, 
to fix that problem. In other words, legislatively, except for 
last year, Congress has said that returning workers are not 
counted against the cap. Do you intend to fix that?
    Secretary Acosta. Senator, let me address that in two ways 
because this is an important issue.
    First, Congress this year empowered Secretary Kelly, in 
consultation with me, to increase that cap. Secretary Kelly has 
announced his intent to increase that amount by up to about 
18,000 visas, which would be the highest level that we have 
seen in a number of years.
    Along with that, though, I think it is important to say 
that Congress looks at this year by year and respectfully, 
rather than fixing the issue, sort of says the administration 
can do it if it would like to and then calls the administration 
and says please increase it. And I think it is very important 
that Congress address this.
    There are specific fixes that can be----
    Senator Graham. Well, until we get there, but you do have 
the authority, I guess, with Secretary Kelly to not count 
returning workers against the cap. Is that correct?
    Secretary Acosta. I believe the statute instead says that 
we can increase the cap by up to the amount of returning 
workers, and I believe Secretary Kelly has already indicated 
his intent to do so.
    Senator Graham. Do you support that decision?
    Secretary Acosta. Yes. The Secretary and I stand shoulder 
to shoulder on this.
    Senator Graham. Give us suggestions about how we can fix 
this problem ourselves as Congress.
    Secretary Acosta. I will gladly have our staff sit down 
with yours because I do think it is a disservice to the 
businesses and to the individual workers to go through this 
every single year.
    Senator Graham. Got you. I am very open-minded about 
helping you fix it.

             EFFECT OF ARTIFICIAL INTELLIGENCE ON WORKFORCE

    One last thing very quickly. Artificial intelligence. Did 
you say it would be 50 years before we would feel the effect of 
artificial intelligence in terms of disrupting the labor force, 
or was that somebody else?
    Secretary Acosta. I have no idea----
    Senator Graham. It was not you.
    Secretary Acosta [continuing]. Who said that. It certainly 
was not me.
    Senator Graham. Okay, good, because it may have been the 
other guy. I do not know who it was.
    Do you believe it will be 50 years before artificial 
intelligence significantly disrupts the workforce?
    Secretary Acosta. Senator, you know, I have heard this from 
time to time from various sources. And I will say this. You 
know, we have been saying that technology is going to disrupt 
and displace the labor force since I think technology was first 
invented.
    Senator Graham. A lot of it is true.
    Secretary Acosta. You know, it is. And ultimately, the plow 
meant that fewer people had to plow a field. But ultimately it 
changes the nature of the labor force. And that is why it is so 
important to have job skills.
    Senator Graham. Is there a plan within the Department of 
Labor to look specifically at the disruptive nature of 
artificial intelligence in the coming decade?
    Secretary Acosta. Senator, we have started speaking about 
the changing nature of the workforce, the increasing use of 
alternative methods of employment, the gig economy, and that is 
something that we are already talking about.
    Senator Graham. Does that include looking at artificial 
intelligence?
    Secretary Acosta. Yes, it does, Senator.
    Senator Graham. Okay. Thank you very much.
    Senator Blunt. Thank you, Senator Graham.
    Senator Manchin.
    Senator Manchin. Thank you very much.
    Thank you, Secretary, for being here. I appreciate it very 
much.

                     MINERS PENSION PROTECTION ACT

    Secretary Acosta, I am sure you know about the miners 
pension. My colleague, Senator Capito, and I introduced a bill 
again to protect--the Miners Pension Protection Act. I guess 
what I would ask you is is the Department of Labor activity 
working on solutions for this problem? Because that is going to 
be a tremendous problem by 2022.
    Secretary Acosta. Senator, it is going to be a tremendous 
problem, and we are actively working on developing solutions 
for this and for the broader issues that this touches upon.
    Senator Manchin. Do you have recommendations for the 
bankruptcy laws that need to be changed so that human beings 
will be protected more so than financial institutions?
    Secretary Acosta. Senator, I do not have recommendations at 
this time. We are looking at options and we are discussing 
them.

                          MSHA BUDGET REQUEST

    Senator Manchin. The Mine Safety Health Administration 
funding request. The underlying premise of MSHA's mission is to 
prevent minor fatalities and accidents. Coal mining is an 
inherently dangerous occupation, as you know. In 2016, eight 
miners succumbed to fatal injuries experienced on the job. To 
date in 2017, nine miners have perished in coal mines, 
including five in West Virginia. I was Governor at a time we 
had some horrific losses, Sago, Aracoma, and then Upper Big 
Branch with 29 miners.
    President Trump requested $375 million for the Mine Safety 
Health Administration for 2018. That is an increase from $374 
million. So I guess I would ask your plan for MSHA. Do you all 
think you have the necessary resources and authority to prevent 
future mining fatalities?
    Secretary Acosta. Senator, as you indicated, the budget is 
relatively unchanged for MSHA, and we do believe we have the 
necessary resources.
    Senator Manchin. How do you intend to encourage the 
environment in which mine safety inspectors and mine employees 
are encouraged to speak up about violations? Do you all have a 
plan along those lines? And I think more specifically, there is 
an awful lot of, oh, mentality, if you will, around a mine site 
that some people will not say anything because they are afraid 
of losing their job. And there are other mine operators who 
basically encourage someone, if you see something wrong and you 
can fix it, please do so if it entails even shutting down the 
mine for a period of time. Have you all weighed in and 
evaluated this?
    Secretary Acosta. Senator, so there is sometimes I think 
not just in mining but in several industries an unfortunate 
reticence to report issues. And I think that is something that 
we are always looking to address and fight against.
    I should also say that something that you see particularly 
in the mining area is frequent inspections to try to identify 
safety issues, and so even when they are not reported in the 
ideal cases and in fact in most cases, the inspections do turn 
up the safety issues.

                          OSHA FUNDING REQUEST

    Senator Manchin. The Occupational Safety and Health 
Administration, OSHA, as we know it, plays a critical role in 
ensuring that our workers are safe in their workplaces. 
Unfortunately, the President's budget request both includes a 
small cut to OSHA and shifts their focus away from enforcement 
and inspections. It would cut 26 employees and conduct almost 
1,000 fewer inspections. OSHA resources are already strained 
and too many workers are being put in danger. In 2015, 4,836 
workers were killed on the job across the country. 4,836 
workers were killed on jobs across our country.
    So I ask, Secretary, given the danger that so many workers 
face in their workplaces, why do you believe the Department of 
Labor is shifting OSHA resources away from inspections? And do 
you not think this might endanger more workers?
    Secretary Acosta. Well, Senator, if I could, the OSHA 
budget does shift a net of approximately $2 million into 
compliance assistance, and that does reflect a belief that some 
of the programs that are longstanding, the VPP programs and 
others, that work with particular companies and industries to 
foster compliance assistance may produce--not may but the 
evidence shows actually do produce better safety outcomes. And 
so it is a net of about a $2 million shift.
    Senator Manchin. If you are focusing--I mean, it looks like 
your shift is focusing away from enforcement and inspections. 
How would it be safer?
    Secretary Acosta. Senator, let me just say it is not--you 
know, when you are talking about a funding request of $543 
million, a $2 million shift, with due respect, is pretty much 
under 1 percent, and that is so that we can fund the VPP 
program that has, in fact, been shown to be very successful 
working with companies and saying, look, these are the steps 
you need to take so that you can provide a safe workplace.
    And so as I said at the opening, the fact that we are 
engaged in compliance assistance, that we are telling people 
what they need to do to have a safe workplace does not mean 
that we have any less enforcement. It just means that we are 
respecting them and saying this is what you need to do, and if 
they do not do it, then we are certainly going to enforce.
    Senator Manchin. So your focus is still on safety.
    Secretary Acosta. Absolutely.
    Senator Manchin. Thank you.
    Senator Blunt. If you have time, there will be a second 
round of questions here in a minute.
    Senator Rubio.
    Senator Rubio. Thank you very much.

               PREPARING WORKERS FOR AUTOMATED WORKPLACES

    Thank you for being here. I do not know if we can get 
through this in 5 minutes because one of the topics I think is 
at the cutting edge of what is going to confront labor for 
years to come.
    A lot of our debates have been historically over the last 
few years treating some of the challenges to work in America as 
if we are undergoing some sort of a cyclical challenge. This is 
not. This is a structural disruption of the very nature of the 
economy. We have had these before--the Industrial Revolution--
except it is happening every 3 years instead over a 50-year 
period. So the disruptions are extraordinary. They are fast. 
They are difficult to predict and anticipate.
    You know, Senator Graham asked about artificial 
intelligence. The same is true for automation in general. You 
know, we have these debates about bringing factories back from 
Mexico. That would be great, but they are just going to be 
American robots instead of Mexican robots, but it will be 
automation nonetheless. That is the reality, and we cannot turn 
the clock back. We could but it would be devastating to our 
economy to do so in terms of the nature of technology's role.
    I would just encourage, as these reports are prepared, 
artificial intelligence and these disruptions--if we could 
somehow anticipate what the basic skills for the labor force in 
10 or 15 years are going to be, I think it would be a valuable 
tool to States to develop curriculum and programs to begin to 
address it because the key worker 25 years from now is probably 
in grade school today, and if they are not acquiring those 
skills and there is no system in place to instill those skills, 
we are going to have a real challenge in terms of global 
competitiveness.
    So I hope we are not just viewing next year's needs but the 
needs in 10, 15, 20 years, understanding how difficult it is to 
anticipate some of these changes. I have always told my 
youngest child who is now 9, almost 10, the job that he may end 
up having probably has not been invented yet. So I do not even 
know what it is called. But nevertheless, that is that.

        RECOGNIZING MILITARY EXPERIENCE IN CIVILIAN OCCUPATIONS

    On the certification--and you and I had a chance to talk a 
little bit. This extends into things like nursing and 
healthcare. Some idea that we could help, at a minimum 
incentivize States and perhaps create other avenues so that 
there would be some short-term recognition--say, someone had a 
profession in the military that is transferable to civilian 
life and some period of time in which that license would be 
recognized giving them the time to take the State licensing, 
for whatever that capacity might be.
    I looked briefly at what the GI Bill covers. I believe it 
covers the costs of the certification tests. What it does not 
cover potentially--I am not 100 percent sure of this, but just 
my cursory research showed is--and I know it is not within your 
Department, but the costs of preparing for those tests. If you 
are going to take a nursing exam or get a State license 
somewhere, you got to study this stuff, and oftentimes the cost 
of doing so is education incapacitation. Maybe we can work on 
something in that regard.

                               PAID LEAVE

    The two things I wanted to ask you about--I do not know if 
you have been asked about this yet--is the paid leave component 
of the budget. And I believe that paid leave is something that 
is a 21st century necessity. How we get there is complex.
    What is interesting, as I have learned more and more about 
it, is big companies, governments, large employers and, quite 
frankly, people that make a lot of money are offered paid 
leave, and many of the corporations in America already offer 
it. So you see people that are making a substantial amount of 
money also receiving paid leave. I do not want them to lose it.
    Has any thought been given, as you tailor the 
administration's proposal, to how we can concentrate our 
efforts here on the people at the lower end of the income 
spectrum, in essence, the people making the $25,000 to $65,000 
or $70,000, $80,000, whatever the right cutoff is? I do not 
want people that are making $300,000 a year to lose their paid 
leave, but I think the people that would really benefit from it 
and are most hurt by the absence of it are at the lower end of 
that scale.
    This is an idea that is going to take some time to develop, 
but in terms of working it out, has some thought been given 
towards prioritizing at least whatever we do through government 
to be at that end of the scale as opposed to throughout the 
entire system? Because the fear, quite frankly, is that we 
create some sort of incentive for companies that are already 
offering it to offer less of it because this new alternative is 
stepped up. So I know it is an idea that is still being worked 
on.
    Secretary Acosta. Senator, thank you for the comments and 
the question. Let me take them each in order fairly quickly.

                   KEEPING UP WITH JOB MARKET CHANGES

    You know, there is an interesting book that has been 
written that calls this the Age of Accelerations because with 
each cycle, technology changes faster and faster. And so 10 
years ago, the iPhone that I suspect most in this room have in 
their pocket or the Smart Phone that they have in their pocket 
did not exist. Facebook was limited to college campuses. And 
sometimes we do not realize it has only been 10 years. So what 
will the world look like 10 years from now? It is almost hard 
to imagine because it has not been invented.
    And so one of the reasons that we have talked about demand-
driven education is because we believe that it is very 
important that education and workforce education in particular 
be nimble enough to respond to changing workforce needs and to 
predict changing workforce needs because technology will change 
the skills that are required.

                          PAID LEAVE PROPOSAL

    Moving quickly to your question regarding paid leave, you 
know, the administration has put forward a proposal. I know 
that that proposal has been discussed vigorously. There are 
some that say that it is not enough. There are some that say it 
is too much. There are some that say it is not calibrated. But 
ultimately it is a proposal, and it is the start of a 
conversation that is a very important conversation. And I know 
that the Senate has engaged in it vigorously, and I know that 
you have taken a leadership role in it, Senator. And I am glad 
that that conversation is being had because at the end of the 
day, it is conversations like this one that will result in good 
outcomes.
    Senator Blunt. Thank you, Senator Rubio.
    Senator Capito.
    Senator Capito. Thank you, Chairman Blunt and Ranking 
Member.
    And thank you, Secretary Acosta. It is nice to see you. 
Thank you for your service.

              DISLOCATED COALMINER AND RETAINING PROGRAMS

    My companion Senator from the great State of West Virginia 
asked a couple similar questions as to what I was going to ask, 
particularly on the Mine Safety and Health Administration. 
Obviously, it is important for us who have a lot of coalminers 
in a dangerous situation that they remain safe. So I appreciate 
your efforts there to continue continuous funding to fund that 
office and the challenges.
    I am happy to report that in West Virginia, we have 1,034 
more coalminers working than we did at the end of 2016. So the 
administration's efforts in that regard are very much 
appreciated.
    In the context of losing so many jobs, tens of thousands of 
jobs, a program was created within the Labor Department to help 
dislocated workers from the coal industry to readjust. And it 
has been funded at $19 million and $20 million in retraining, 
and I believe this is still very much needed. Do you have any 
insights now that it has been 2 years in the making as to what 
has been effective with training dislocated miners and where 
you are seeing some success?
    Secretary Acosta. Senator, I do not have the data 
presently, but I am more than happy to have the Department 
gather that and to convey that to your staff and your 
colleague, Senator Manchin's staff, as well.
    [The information follows:]
              dol investments in coal-impacted communities
  --The fiscal year 2016 and fiscal year 2017 appropriations provided 
        resources to support a multi-agency effort to address 
        displacement of energy sector workers and impacted communities 
        that have relied on the coal industry for good jobs and 
        economic prosperity. The Department has worked with partners 
        from the Department of Commerce, the Small Business 
        Administration, and the Appalachian Regional Commission to 
        provide integrated and coordinated investments in communities 
        and for workers impacted by changes in the coal and power 
        sectors.
  --Specifically, the Department of Labor received $19 million in 
        fiscal year 2016 and $20 million in fiscal year 2017 in the 
        National Dislocated Worker Reserve for Dislocated Worker Grants 
        (DWG). The Department has also provided DWGs outside this joint 
        initiative to support workforce development in the coal mining 
        communities. The DWGs help communities organize themselves to 
        respond on behalf of affected workers and businesses; develop a 
        comprehensive strategic plan that charts their economic future; 
        and execute coordinated economic and workforce development 
        activities.
  --States or local workforce development boards with communities 
        impacted by the downturn in the coal economy may apply for DWG 
        funds at any point as long as funds remain available. There is 
        no specified deadline for submission of grant applications.
  --Communities eligible for coal-impacted funds are those that have 
        been impacted, or can reasonably demonstrate that they will be 
        impacted, by a public announcement or individual notifications 
        of layoff by coal mining or coal power plant employment loss 
        (or layoffs in the manufacturing or transportation logistics 
        supply chains of either). The Department encourages States to 
        continue to take advantage of this ongoing window of 
        opportunity to serve workers impacted by downturns in the coal 
        economy within their states.
  --In total, the Department has awarded 11 grants totaling 
        approximately $59 million focused on the coal industry. The 
        Department continues to consider new applications from impacted 
        communities.
    --The first table below reflects the total number of Dislocated 
            Worker Grants that the Department has awarded to the coal 
            industry.
    --The second table shows those grants awarded specifically with the 
            Program Year 2016 resources. The coal-related set-aside 
            grants have not yet been awarded in Program Year 2017, as 
            the majority of the Dislocated Worker grant money does not 
            become available until October 1, 2017.
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            

    Senator Capito. Thank you for that.

                        APPRENTICESHIP PROGRAMS

    I did want to begin, which I forgot to tell you, to invite 
you to come to West Virginia. We would love to have you there. 
And the initiative on apprenticeships I think is very much 
welcome in a State that has traditionally had many unions that 
have successfully employed many people for many years in our 
State through their apprenticeships, beginning with their 
apprenticeships program, that mode of getting the worker 
trained and to a job has been successful in the past. So I want 
to join with the administration in efforts to expand that.
    Secretary Acosta. Thank you, and I would be more than happy 
to visit, once again, West Virginia. And so thank you.
    Senator Capito. Great.

                    DISLOCATED WORKER PROGRAM BUDGET

    Lastly, your budget also has in it for the dislocated 
worker $66 million to Appalachian communities to provide 
dislocated workers for employment and training. And this is 
great, as we have talked about. But as your justification, you 
have said the set-aside will target services previously 
provided by the Appalachian Regional Commission. So I take 
exception that the Appalachian Regional Commission--even though 
in the President's budget it was zeroed out. I think we are 
going to fight hard and we have a bipartisan group here to make 
sure we retain the economic development aspects of the ARC.
    But I would just like to work with you to not only train 
but all of the economic efforts of getting Appalachia back on 
its feet again. We have a huge opioid issue in and around our 
regions that is coupled with joblessness and a lot of 
hopelessness in some cases. So your Department is absolutely 
critical to the folks that I live in and around to getting us 
back on our feet.
    Secretary Acosta. I understand, Senator. Thank you.
    Senator Capito. Thank you.
    Senator Blunt. Thank you, Senator Capito.
    Senator Murray.
    Senator Murray. Thank you very much.

                     CUTTING APPRENTICESHIP GRANTS

    And, Mr. Secretary, I know you have heard a lot about 
apprenticeship programs. I think most people on this committee 
strongly support them, but I am really concerned that the 
President's executive order serves as a distraction from what 
is happening in this budget where there is a huge slash in the 
investment scenarios like workforce training, public health and 
education. These are issues that have been bipartisanly 
supported--these investments on this committee. In fact, 
Chairman Blunt and I have been able to fund investments in 
registered apprenticeship grants since 2016. These are grants 
that have actually put tens of thousands of workers on a proven 
path to the middle class and helped address employers' needs 
for skilled workers.
    The President's proposal intends to circumvent a proven 
program with wages and training and equal opportunity 
employment standards, and those standards not only protect 
workers, by the way, they ensure employers actually get highly 
skilled workers.
    By comparison, the President's proposal could open the door 
to any company, including predatory fake colleges like Trump 
University, to develop low quality programs that benefit 
corporations and special interests at the expense of workers.
    So tell us why the President chose to undermine the 
registered apprenticeship program that has bipartisan support 
here rather than fund what we know works.
    Secretary Acosta. Senator, thank you for the question. And 
it is something that I have been reading about in the media, 
and so I do want to take this opportunity to address that.
    As you mentioned, apprenticeships are proven. The resulting 
wage is a strong wage. The employment record--the probability 
of employment following an apprenticeship is outstanding, and 
it is a proven system. And so the President's executive order 
sets up a mechanism to allow these apprenticeship programs to 
grow across industries, not just limited to the traditional 
industries like building trades where they have been used, but 
across industries. We have had even individuals from Mercuria 
Capital that were part of the order where they participated in 
commodities trading apprenticeships and also increase in scale.
    The approach taken is not an approach that sacrifices 
quality, and my personal perspective is that this will not and 
should not sacrifice quality because the industry has an 
interest in assuring quality because they have an interest in 
assuring a skilled workforce.
    Senator Murray. Correct.
    Secretary Acosta. If one were to look at the way the 
Department of Education, for example, approaches many of these 
issues, the Department of Education empowers the American 
Medical Association, for example, to accredit medical schools. 
Yet, we do not hear discussion of how there is a sacrificing in 
quality among medical schools because we look to the American 
Medical Association and we say, look, they are empowered----
    Senator Murray. I do not mean to speed you up, but I only 
got a minute and a half. And I hear what you are saying. I just 
want you to know that that is how I look at this, and we have 
to make sure that those apprenticeship programs, as you talk 
about, are ones that actually provide a highly skilled, 
qualified workforce. And the details matter on this.

                         PROPOSAL ON PAID LEAVE

    I do want to follow up on Senator Rubio's question to you, 
Mr. Secretary, about paid leave because I heard what he was 
saying, and I have looked at this. The President's budget 
provides new parents with 6 weeks of paid leave, but the way it 
pays for it is it suggests that States pay for it through their 
State unemployment insurance programs, which, by the way, 
disproportionately exclude women and vulnerable workers, those 
exact people that Senator Rubio said need it. And to make 
matters worse, State unemployment benefits are extremely low, 
so modest in fact that low-wage workers will not be able to 
afford to take leave even if it were technically available.
    And similarly, the President's proposal only focuses on new 
parents. People need leave if their parent is seriously or if 
their child is seriously ill. So that concerns me as well.
    I just want you to know I am following this very closely. I 
think paid leave is extremely important, but we cannot just 
throw out a proposal as if because States cannot make up that. 
We have to be serious about it. We need to make sure that, as 
Senator Rubio pointed out, those people who have paid leave 
tend to be the more highly paid workers. They are not the ones 
I am so worried about. I am worried about those clerks at the 
grocery store and nurses and other folks who need it. So I am 
going to be following that very closely as well.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Murray.

                  CBO PREDICTIONS ON HEALTHCARE REFORM

    So far be it for me to take any of my time defending CBO. I 
can think of many more cases over the years where CBO was wrong 
like when they had the implementation of Medicare Part D 
costing almost twice as much as it actually cost over the first 
year and the years to follow that, or when the Affordable Care 
Act was scored by CBO, there would now be 25 million people 
getting insurance in the individual market instead of the 9 
million that are getting insurance in the individual market. So 
CBO scoring is notoriously bad. I am sure it is not accurate 
here.
    But if you want to look at that 22 million figure they said 
was the figure they were coming up with, they say 15 million of 
those people would be uninsured because the penalty was removed 
and they would choose not to have insurance if there was not a 
penalty. So that is a big number and answers the question that 
you were asked earlier.
    I did check on the last scoring of the House bill. I think 
3 million people that currently have Medicaid at no cost would 
choose not to have Medicaid if you eliminate the penalty for 
not having insurance. So that is the CBO view of that future, 
not necessarily the one that will turn out to be accurate.

                            H-2B CAP ISSUES

    On H-2B issues, you pointed out the Committee gave quite a 
bit of flexibility and I think encouragement to deal with that, 
as we have for some time. Whatever you and General Kelly would 
like to talk about in terms of how we get a long-term solution 
instead of a short-term I think is a perfectly fine idea but 
not for this year. This is going to take longer to put together 
the facts, I think even some discussion of looking at a 
regional impact number. When Senator Mikulski used to sit by 
Senator Murray and me on this dais, she was always very 
interested in fishermen and crabbing and things that have no 
impact in Missouri but have a big impact in Maryland. So I 
understand all that and appreciate it. But what happens this 
year is what needs to be dealt with right now.
    And if you move forward, how quickly do you think, between 
you and Homeland Security, you would be at a place where you 
can decide what is going to happen this year?
    Secretary Acosta. Mr. Chairman, thank you for the comments, 
and let say Senator Kelly and I have spoken. He has indicated 
publicly his intent to increase the cap pursuant to the 
authority. He and I stand shoulder to shoulder on the decision. 
We agree on that outcome. And we have also spoken about how 
quickly we can move forward. And he is working to move forward 
as expeditiously as possible with the understanding that 
individuals are waiting for those visas. And so I would defer 
to DHS (Department of Homeland Security), but I would say that 
Senator Kelly is personally committed to moving forward as 
expeditiously as possible, again with the understanding--and I 
am happy to work with the Chairman's staff--that it is 
important to not do this year after year but to have a 
permanent fix so that we are not putting all these businesses 
and all these individuals in this position of uncertainty 
again.
    Senator Blunt. I think that is a perfectly reasonable thing 
to do as long as we realize that is what we ought to be talking 
about after your study is done. And as your study is being 
done, it would be impractical to try to do that this year but I 
think very practical to do it in the future. I think that is 
what Senator Graham said as well, and I think you would find a 
lot of interest in trying to work this out so we do not have to 
deal with it every year.

                         JOB CORPS BUDGET CUTS

    Let us talk about Job Corps for just a minute. There are 
125 Job Corps centers in the United States. Three of them are 
in Missouri. I think in the bill that Congress voted on in 
April, we increased Job Corps by about $15 million. This 
proposal cuts it by $256 million with expressed intention I 
think at the Department that some of these Job Corps sites 
would be closed, maybe as many as 20.
    So I really have three questions there. One is what 
methodology would you use to decide what centers to close? How 
would you relocate any students in those centers? And are you 
committed to keeping at least one center in every State?
    Secretary Acosta. Senator, thank you for those questions. 
Let me take them in order.
    First, as to methodology, I think it is very important to 
have--depending on where the budget ends up, we need to have a 
methodology because these are very sensitive centers, and that 
methodology should be based on outcomes. It should not be based 
on the number of participants, but rather on whether they are 
getting jobs, and that outcome measure should be sensitive to 
differences in regions. And so a region that has significant 
challenges in jobs and job growth may have a Job Corps center 
that is phenomenally successful even though the employment rate 
is a little bit lower than the employment rate of another Job 
Corps center that is in a region that is experiencing economic 
growth. And so the outcome needs to be what I will call a 
regionally adjusted employment outcome measure.
    Certainly it would be the case that we would notify Members 
of the Senate and Members of Congress before closing any Job 
Corps center because they are important to districts and to 
States. And so I cannot commit to ensuring that there is one in 
every State, but I can certainly commit to notifying Members of 
Congress and Members of the Senate so that--Members of both the 
House and the Senate and Members of Congress, obviously--so 
that there is at least opportunity for a fulsome discussion. 
But at the end of the day, I do think it needs to be based on 
metrics.
    And let me just finally say----
    Senator Blunt. And what about students in the centers that 
you would close?
    Secretary Acosta. Senator, I think that would have to be 
looked at very closely. My hope is that we could use the 
equivalent of a teach-out method which is what is used in 
colleges.
    Let me make two final points. As the Senator acknowledged 
at the beginning, this is a discussion that Congress has from 
year to year, and it is something that I would be committed to 
working with the committee staff on because it is important and 
I do recognize from my visits with so many members of the 
committee the importance of these centers. And so I do not 
think this should be a unilateral, but I do think it needs to 
be part of a more fulsome discussion.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Well, thank you, Mr. Secretary. Thank you 
and your team that has been here today.
    The record will stay open for 1 week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
                         rural water utilities
    Question. Water and wastewater utilities need a pipeline of skilled 
workers to help ensure clean and safe water for the public and to 
maintain the water infrastructure necessary to keep service areas 
economically viable (especially in rural America where 92 percent of 
systems serve communities of 10,000 or less). The main concern for 70 
percent of Missouri's 900+ rural water utilities is filling jobs left 
behind by the aging water industry workforce. Water and wastewater 
utilities are the backbone of economic development, responsible for the 
public's health protection and stewards of safe drinking water 
delivery.
    How do you see the apprenticeship program being able to help this 
industry?
    Answer. High-quality apprenticeships can help industries fill 
critical positions. The Department of Labor is focused on maximizing 
the efficient use of Federal resources so that individuals are well 
prepared to meet workforce needs. The Department looks forward to 
working with all industries to expand job opportunities for Americans 
and help ensure that American workers are prepared to fill open 
positions in vital industries throughout the nation.
    With regard to your specific question, the Department's Office of 
Apprenticeship is working with the National Rural Water Association 
(NRWA), the nation's largest water utility association with 
approximately 34,000 affiliate member organizations, to develop 
National Guideline Apprenticeship Standards for Water and Waste Water 
Operations Specialist. These standards will create a pipeline for a new 
generation of water and wastewater utility workers that will be capable 
of keeping America's drinking water safe and available.
    Question. What other Department of Labor training programs should 
rural water utilities utilize to train the next generation of their 
workforce?
    Answer. The Department of Labor funds multiple employment and 
education programs, including programs related to water and wastewater 
quality and treatment, through American Job Centers located throughout 
the United States. Additionally, the Department encourages rural water 
utilities to partner with states, educational institutions, Local 
Workforce Development Boards, and other stakeholders to develop 
strategies to address the specific workforce needs for the water and 
wastewater industries in their areas.
                      private disability insurance
    Question. I have heard significant concerns regarding the Obama 
Administration's final regulation amending disability claims procedures 
(81 Fed Reg. 92316), including that the past Administration failed to 
show that there are problems with the current disability claims 
procedures' regulatory status.
    What steps is the Department taking to reexamine the regulation?
    Answer. On June 20, 2017, The Office of Information and Regulatory 
Affairs at the Office of Management and Budget published the first 
Current Unified Agenda of Regulatory and Deregulatory Actions of this 
Administration. The Agenda included a notice that the Department of 
Labor intends to review the Employee Benefits Security Administration's 
(EBSA) final rule pertaining to Claims Procedure for Plans Providing 
Disability Benefits, for questions of law and policy.
    Pursuant to Executive Orders (EOs) 13563 (Improving Regulation and 
Regulatory Review) and 13610 (Identifying and Reducing Regulatory 
Burdens), and consistent with EO 13771 (Reducing Regulation and 
Controlling Regulatory Costs) and EO 13777 (Enforcing the Regulatory 
Reform Agenda), the President directed the Department of Labor to 
review regulations that unnecessarily eliminate jobs, inhibit job 
creation, are unnecessary, or impose costs that exceed benefits. 
Following the President's directive, the Department of Labor is 
undertaking a comprehensive review of regulations, including the final 
rule pertaining to Claims Procedure for Plans Providing Disability 
Benefits.
    Question. Do you believe the cost benefit analysis supports the 
need for this new rule?
    Answer. Pursuant to Executive Orders (EOs) 13563 (Improving 
Regulation and Regulatory Review) and 13610 (Identifying and Reducing 
Regulatory Burdens), and consistent with EO 13771 (Reducing Regulation 
and Controlling Regulatory Costs) and EO 13777 (Enforcing the 
Regulatory Reform Agenda), the President directed the Department of 
Labor to review regulations that unnecessarily eliminate jobs, inhibit 
job creation, are unnecessary, or impose costs that exceed benefits. 
Following the President's directive, the Department of Labor is 
undertaking a comprehensive review of regulations, including the final 
rule pertaining to Claims Procedure for Plans Providing Disability 
Benefits. It would be premature to make any conclusions prior to the 
completion of the review.
    Question. What was the compelling public need identified that 
outweighed the cost to the employers, carriers, and ultimately the 
consumer?
    Answer. Pursuant to Executive Orders (EOs) 13563 (Improving 
Regulation and Regulatory Review) and 13610 (Identifying and Reducing 
Regulatory Burdens), and consistent with EO 13771 (Reducing Regulation 
and Controlling Regulatory Costs) and EO 13777 (Enforcing the 
Regulatory Reform Agenda), the President directed the Department of 
Labor to review regulations that unnecessarily eliminate jobs, inhibit 
job creation, are unnecessary, or impose costs that exceed benefits. 
Following the President's directive, the Department of Labor is 
undertaking a comprehensive review of regulations, including the final 
rule pertaining to Claims Procedure for Plans Providing Disability 
Benefits. It would be premature to make any conclusions prior to the 
completion of the review.
                 authority for private right of action
    Question. The Supreme Court has ruled that only Congress has the 
power to create a private right of action to sue. However, in 
finalizing the Fiduciary rule, the Department of Labor created a 
private right of action, which became operational on June 9.
    What authority allows the Department to create a private right of 
action?
    Answer. The Employee Retirement Income Security Act (ERISA, Act) 
gives plan participants a statutory claim for violations of Title I of 
the Act, and plan participants can accordingly bring an action under 
the statute for violations of their fiduciary obligations. By expanding 
the scope of who is a fiduciary and what constitutes advice, the 
current rule expands the number of entities subject to the Title I 
private right of action should they violate ERISA; however, the 
fiduciary rule itself does not create a private right of action.
    The Department announced a non-enforcement policy in a Field 
Assistance Bulletin (FAB) published on May 22, 2017, that applies while 
the Department reviews the fiduciary rule. The FAB states that the 
Department's general approach to implementing the fiduciary rule will 
emphasize providing compliance assistance to (rather than citing 
violations and imposing penalties on) plans, plan fiduciaries, 
financial institutions, and others who are working diligently and in 
good faith to understand and come into compliance with the rule. This 
approach will encourage entities affected by the rule to engage in good 
faith compliance efforts without facing the risk of enforcement action 
and litigation by the Department while we conduct our examination of 
the fiduciary rule. The Department anticipates that private actions are 
unlikely to be brought or be successful if entities are engaged in good 
faith compliance with the rule.
           fiduciary rule and sec review of investment advice
    Question. Since the Obama Administration first proposed a Fiduciary 
rule back in 2011, I have been concerned about the Department's role in 
this issue, which I think is better housed at the Securities and 
Exchange Commission (SEC), and about the lack of input from the SEC. In 
your Wall Street Journal editorial last week, you acknowledged that the 
SEC has a critical role to play in investment advice.
    If the SEC were to review investment advice and possibly move 
forward with regulatory action, would the Department of Labor rescind 
its rule?
    Answer. The Securities and Exchange Commission (SEC) and Department 
of Labor have separate statutory roles and enforcement 
responsibilities, but each agency's regulations pertaining to the 
investment space may impact the other agency. The SEC has critical 
expertise in this area, yet in the Obama Administration, the SEC 
declined to move forward in rule-making. SEC Chairman Clayton and I 
stated our intentions to engage constructively as each agency decides 
how to move forward in this area. I look forward to continuing this 
constructive dialogue.
    Question. What discussions have you had thus far with the SEC?
    Answer. Discussions between the Securities and Exchange Commission 
(SEC) and Department of Labor are ongoing. The Department will continue 
to actively collaborate with the SEC and Financial Industry Regulatory 
Authority (FINRA) as decisions are made on how best to move forward in 
this area. The Department is currently conducting a careful review of 
the fiduciary rule and associated exemptions to decide whether further 
changes are necessary. As part of its ongoing review, including the 
Request for Information published in the Federal Register by the 
Department of Labor on July 6, 2017, the Department will take a careful 
look at all the exemptions' conditions and could propose to eliminate 
or alter the contract conditions based on its findings and the comments 
received from the public.
             presidential memorandum on the fiduciary rule
    Question. On February 3rd, the President issued a memorandum to the 
Department on the Fiduciary rule. In the memo, the President wanted to 
make certain that the Department take into account three issues:
    (1) whether the rule harms or will likely harm investors;
    (2) whether the rule has resulted in dislocations or disruptions 
within the retirement services industry that may adversely affect 
investors or retirees; and
    (3) whether the rule is likely to cause an increase in litigation 
or increase the prices investors and retirees pay to gain access to 
retirement services.
    If the Department's review finds that the rule will result in any 
of these negative impacts, will you rescind the rule?
    Answer. The President's Memorandum states that if the Department of 
Labor makes an affirmative determination as to any of the 
considerations identified in subsection (a) of the Memorandum, or if 
the Department concludes for any other reason after appropriate review 
that the fiduciary rule is inconsistent with the priorities identified 
in the President's Memorandum, then the Department shall publish for 
notice and comment a proposed rule rescinding or revising the rule, as 
appropriate and as consistent with law. The Department is currently 
conducting a careful review of the fiduciary rule and associated 
exemptions to decide whether further changes are necessary. The 
Department has not completed the examination that the President 
directed, and it would be premature to reach a conclusion on what steps 
the Department may take when the examination is complete.
    Question. Does your decision to allow a significant component of 
the rule to go into effect conflict with the President's impact review 
memorandum?
    Answer. After carefully reviewing the administrative record for the 
fiduciary rule and the Administrative Procedure Act (APA) requirements, 
the Department of Labor found no principled legal basis to change the 
June 9, 2017, applicability date of the rule while we seek and review 
public input on the rule. This decision does not conflict with the 
President's Memorandum.
    As I stated in my May 22, 2017, Wall Street Journal op-ed, Federal 
agencies can act only as the law allows. The law sets limits on the 
power of Federal agencies and establishes procedures agencies must 
follow when they regulate or deregulate, including the APA. Generally, 
the APA requires Federal agencies to engage in the following process 
before regulating or deregulating: (1) issue a notice of proposed 
rulemaking; (2) solicit public comments on the proposed rule; (3) issue 
a final rule after considering the public comments received in response 
to the proposal; and (4) establish an effective date at least 30 days 
after publication of the final rule in the Federal Register. This 
process ensures that all Americans have an opportunity to express their 
concerns before a rule is finalized or revised.
    We are currently conducting a careful review of the fiduciary rule 
and associated exemptions to decide whether further changes are 
necessary. As part of its ongoing review, including the Request for 
Information published in the Federal Register by the Department of 
Labor on July 6, 2017, the Department will take a careful look at all 
the exemptions' conditions and could propose to eliminate or alter the 
contract conditions based on its findings and the comments received 
from the public.
    The Department announced a non-enforcement policy in a Field 
Assistance Bulletin (FAB) published on May 22, 2017, that applies while 
the Department reviews the fiduciary rule. The FAB states that the 
Department's general approach to implementing the fiduciary rule will 
emphasize providing compliance assistance to (rather than citing 
violations and imposing penalties on) plans, plan fiduciaries, 
financial institutions, and others who are working diligently and in 
good faith to understand and come into compliance with the rule. This 
approach will encourage entities affected by the rule to engage in good 
faith compliance efforts without facing the risk of enforcement action 
and litigation by the Department while we conduct our examination of 
the fiduciary rule. The Department anticipates that private actions are 
unlikely to be brought or be successful if entities are engaged in good 
faith compliance with the rule.
       using administrative procedure act to delay fiduciary rule
    Question. Given the legal challenges pending to the rule, why did 
the Department choose not to use authority provided in the 
Administrative Procedure Act (Section 705) to delay the implementation 
date?
    Answer. As I stated in my May 22, 2017, Wall Street Journal op-ed, 
Federal agencies can act only as the law allows. The law sets limits on 
the power of Federal agencies and establishes procedures agencies must 
follow when they regulate or deregulate, including the Administrative 
Procedure Act (APA). Generally, the APA requires Federal agencies to 
engage in the following process before regulating or deregulating: (1) 
issue a notice of proposed rulemaking; (2) solicit public comments on 
the proposed rule; (3) issue a final rule after considering the public 
comments received in response to the proposal; and (4) establish an 
effective date at least 30 days after publication of the final rule in 
the Federal Register. This process ensures that all Americans have an 
opportunity to express their concerns before a rule is finalized or 
revised.
    After carefully reviewing the administrative record for the 
fiduciary rule and the APA requirements, the Department of Labor found 
no principled legal basis to change the June 9, 2017, applicability 
date of the rule while we seek and review public input on the rule. 
Although Section 705 of the APA allows for delays in certain 
circumstances without notice and comment, the Department concluded, 
after a careful review of the ongoing legal and regulatory process, 
that it would not be appropriate to rely on Section 705.
    We are currently conducting a careful review of the fiduciary rule 
and associated exemptions to decide whether further changes are 
necessary. As part of its ongoing review, including the Request for 
Information published in the Federal Register by the Department of 
Labor on July 6, 2017, the Department will take a careful look at all 
the exemptions' conditions and could propose to eliminate or alter the 
contract conditions based on its findings and the comments received 
from the public.
    The Department announced a non-enforcement policy in a Field 
Assistance Bulletin (FAB) published on May 22, 2017, that applies while 
the Department reviews the fiduciary rule. The FAB states that the 
Department's general approach to implementing the fiduciary rule will 
emphasize providing compliance assistance to (rather than citing 
violations and imposing penalties on) plans, plan fiduciaries, 
financial institutions, and others who are working diligently and in 
good faith to understand and come into compliance with the rule. This 
approach will encourage entities affected by the rule to engage in good 
faith compliance efforts without facing the risk of enforcement action 
and litigation by the Department while we conduct our examination of 
the fiduciary rule. The Department anticipates that private actions are 
unlikely to be brought or be successful if entities are engaged in good 
faith compliance with the rule.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                     job corps procurement process
    Question. It is my understanding that there are a number of Job 
Corps procurements that are currently behind schedule. Due to this 
delay, some Job Corps contracts are being issued as short-term 
indefinite contracts until a full contract can be competed. These 
short-term contracts create a sense of uncertainty, and sometimes 
unnecessary turnover, for the staff, students and local contractors at 
Job Corps sites across the country.
    In order to minimize unnecessary disruptions to local communities, 
what steps are the Department taking to conduct the procurement process 
in a timely manner?
    Answer. The Department of Labor recognizes the importance of 
completing competitive procurements and continues to make progress to 
eliminate the procurement backlog. To date, 48 of the 61 backlogged 
procurements have been awarded. Of the 13 backlogged procurements 
remaining, it is anticipated that three more will be awarded by the end 
of fiscal year 2017. It is the Department's goal to award the remaining 
10 by the end of Program Year 2017 in June 2018.
    Question. Please share with the Committee the Department's expected 
enactment date of the above steps.
    Answer. The Department of Labor expects there will be 10 backlogged 
Job Corps procurements by the end of fiscal year 2017 and it is the 
Department of Labor's goal to award the remaining 10 by the end of 
Program Year 2017 in June 2018. With the exception of the contracts 
that are part of this backlog, the competitive procurements for Job 
Corps Centers, including Center Operations, Outreach and Admissions, 
and Career Transition Services, are currently on schedule.
                  reducing h-2a and h-2b visa backlogs
    Question. I have heard from constituents concerned about the 
significant delays in processing applications for agricultural and non-
agricultural workers. After attempts to recruit American workers, 
Mississippi businesses must rely on seasonal workers to fill gaps in 
their workforce. In fiscal year 2017, Congress provided the Department 
the authority to utilize H-1B fee funds for additional staffing to 
assist with the prompt processing of foreign labor certifications.
    Will you please update the Committee on the status of H-2A and H-2B 
visa backlogs?
    Answer. There are currently no H-2A or H-2B labor certification 
backlogs with the Office of Foreign Labor Certification (OFLC) at the 
Department of Labor (DOL). Each program is meeting its statutory and 
regulatory deadlines for processing at the Department.
    Question. Please share with the Committee the estimated timeframe 
to resolve all outstanding H-2A and H-2B visa applications.
    Answer. There are currently no H-2A or H-2B labor certification 
backlogs with DOL's OFLC. Each program is meeting its statutory and 
regulatory deadlines for processing at the Department.
    Question. Please share with us the steps your Department is taking 
to ensure the processing of seasonal worker visas are conducted in a 
timely manner and does not become an annual problem.
    Answer. DOL's OFLC is utilizing the one-time $20 million H-1B fee 
funding available in fiscal years 2017 and 2018, as well as other 
existing resources, to make significant progress implementing major 
operational improvements that will further mitigate processing backlogs 
in advance of the upcoming peak filing seasons for fiscal year 2018 and 
fiscal year 2019. The process improvements that OFLC continues to 
implement include the development of Federal staff surge capabilities, 
hiring of additional temporary contract staff, staff cross-training, IT 
system enhancements, enhanced stakeholder outreach, an internal rapid 
response team designed to mitigate risks associated with OFLC's 
antiquated technology infrastructure, and improvement of state 
Workforce Agency capabilities via additional funding and training. OFLC 
is committed to utilizing all available resources to ensure timely 
processing of seasonal worker visas.
    As proposed in the Budget, OFLC fee authority is needed to provide 
consistent, long-term stability to the organization, which will enable 
it to provide better and more efficient service into the future. If 
enacted, the proposed fees would when fully implemented provide the 
appropriate level of resources necessary to reduce processing times and 
would result in better information technology capacity and customer 
service to employer applicants.
             combating skills gap in water utility industry
    Question. Water and wastewater utilities are important to the 
economic development and health of our communities. With the current 
workforce nearing retirement, skilled workers are needed to maintain 
our water infrastructure, especially in rural areas. I have heard from 
constituents in Mississippi who are concerned with the lack of skilled 
labor to meet the needs of the industry.
    Is the Department aware of the needs for skilled workers in water 
and wastewater industries?
    Answer. The skills gap is real, and affects many industries across 
our nation. One way to address this issue is through apprenticeships, 
which can help industries fill critical positions. The Department of 
Labor is focused on maximizing the efficient use of Federal resources 
so that individuals are well-prepared to meet workforce needs. The 
Department looks forward to working with all industries to expand job 
opportunities for Americans and help ensure that American workers are 
prepared to fill open positions in vital industries throughout the 
nation, including the water and wastewater industries.
    Question. What entities does the Department plan to coordinate with 
to ensure the needs are being met of water and wastewater occupations?
    Answer. The Department's Office of Apprenticeship is working with 
the National Rural Water Association (NRWA), the nation's largest water 
utility association with approximately 34,000 affiliate member 
organization, to develop National Guideline Apprenticeship Standards 
for Water and Waste Water Operations Specialist. These standards will 
create a pipeline for a new generation of water and wastewater utility 
workers that will be capable of keeping America's drinking water safe 
and available.
    Question. Does the Department plan to collaborate with other 
Federal agencies to identify the water and wastewater occupational 
needs? If so, what agencies?
    Answer. The Department of Labor collaborated with the Environmental 
Protection Agency's Office of Water, the American Water Works 
Association, the Water Environment Federation, SouthWest Water Company, 
Wyoming Rural Water, Rural Community Assistance Partnership, and the 
San Francisco Public Utilities Commission to publish a water and 
wastewater competency model. The competency model delineates the skill 
sets and foundation and technical competencies often necessary for 
occupations in the water and wastewater sector. The Department will 
continue to work with Federal agencies, industry, and other interested 
stakeholders to ensure the workforce needs of the water and wastewater 
industries are met.
    Question. What can the Committee do to ensure the Department has 
the resources it needs to address these shortages?
    Answer. Generally speaking, work-based education, including high 
quality apprenticeships, are effective to help narrow the skills gap--
enabling employers to be involved in the education of their future 
workforce and ensure workers possess the necessary skills jobs demand. 
One of the key goals in the President's recent Executive Order on 
Expanding Apprenticeship in America is to better align businesses and 
institutions of higher education. Apprentices receive wages and, just 
as importantly, skills that enable them to succeed in today's 
workforce. Employers looking for skilled workers are best served by a 
streamlined and efficient workforce system that partners with trade and 
industry groups, companies, non-profit organizations, unions, and joint 
labor-management organizations.
                      reviewing the overtime rule
    Question. Under the last administration, the Department finalized a 
rule that would significantly increase the salary threshold for 
employees who are determined to be eligible for overtime pay. I have 
heard from many constituents who are concerned about the impact this 
rule will have on their businesses, non-profit organizations and 
institutions of higher education. I understand the Department is 
further evaluating this rule and requested additional information on 
the rule from the Office of Management and Budget.
    How will the Department account for regional differences in wages 
and cost-of-living when reviewing this rule?
    Answer. On July 26, 2017, the Department of Labor published a 
Request for Information (RFI) regarding the overtime rule in the 
Federal Register. The RFI offers the public the opportunity to comment 
on a broad range of questions and issues related to the 2016 overtime 
rule, including whether the regulations should contain multiple salary 
levels and, if so, whether they should be set by ``census region, 
census division, state, metropolitan statistical area'' or any other 
method. The comments received in response to the RFI will aid the 
Department in formulating a proposal to revise the regulations.
    Question. How is the Department addressing the effects this rule 
might have on those working for non-profit organizations and public 
universities?
    Answer. On July 26, 2017, the Department of Labor published a 
Request for Information (RFI) regarding the overtime rule in the 
Federal Register. The Department is aware that stakeholders are 
concerned the salary level set in the 2016 final rule was too high and 
therefore offers the public the opportunity to comment on a broad range 
of questions and issues related to the 2016 overtime rule. The 
Department invites Members of Congress and other interested parties to 
provide comments on issues of importance to them as the comments 
received in response to the RFI will aid the Department in formulating 
a proposal to revise the regulations.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                  job corps geographic assignment plan
    Question. Most Job Corps centers are under enrolled at the current 
moment which negatively impacts Job Corps' efficiency and means we're 
serving fewer young people than we could be. Sec. 145(c) of WIOA 
requires the Department to update and issue a revised Geographic 
Assignment Plan every 2 years based on standards set forth in that 
section.
    When was the last time the Department updated that plan?
    Answer. The Department of Labor is still in the process of 
implementing the new Workforce Innovation and Opportunity Act (WIOA) 
requirements and, therefore, has not updated the Geographic Assignment 
Plan. WIOA requires that the assignment plan consider the size and 
enrollment level of each Job Corps center, including the education, 
training, and supportive services provided, and the performance of the 
Job Corps center related to the newly established expected levels of 
performance. Further, WIOA requires that the assignment plan consider 
the size of the population of individuals eligible to participate in 
Job Corps in the state and region in which the Job Corps center is 
located and in the surrounding regions, and the relative demand for Job 
Corps participation in the state, region, and surrounding regions. WIOA 
also requires that the assignment plan provide for assignments at the 
center closest to home that offers the type of career and technical 
training selected by the individual rather than just the center closest 
to home. Job Corps is currently implementing these new requirements. 
While these new requirements will improve access to training for Job 
Corps students, they also require significant changes in how Job Corps 
develops its Geographic Assignment Plan.
    Question. Does the department have any plans to do so in the near 
future?
    Answer. The Department of Labor is currently in the process of 
developing a strategic and innovative nationwide Geographic Assignment 
Plan that incorporates all of the new requirements included in the 
Workforce Innovation and Opportunity Act (WIOA) for Job Corps.
                         tribal sovereignty act
    Question. Mr. Secretary, committees in both chambers of Congress 
have favorably reported the Tribal Labor Sovereignty Act (S. 63/H.R. 
986) and it now awaits final passage. This legislation simply seeks to 
permit Indian tribes to determine their own labor practices just as any 
other level of government is able to do under the National Labor 
Relations Act. In a hearing earlier this year, Secretary Zinke 
committed to encouraging the President to sign this legislation into 
law should it reach his desk.
    Will you please detail your position on this legislation and if you 
will also recommend enacting this into law?
    Answer. I have no present basis to object to the Tribal Labor 
Sovereignty Act, which, if enacted, would amend the National Labor 
Relations Act (NLRA) to add federally-recognized Indian tribes, tribal 
governments, and tribally-owned and operated institutions and 
enterprises located on Indian lands to the list of entities excluded 
from the definition of ``employer'' for purposes of the NLRA. It is my 
understanding that the Administration has not taken a formal position 
on the legislation.
    Question. If you would withhold such a recommendation, can you 
explain why?
    Answer. I have no present basis to object to the Tribal Labor 
Sovereignty Act. It is my understanding that the Administration has not 
taken a formal position on the legislation.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
                             ghost workers
    Question. Recently, several Florida media outlets reported 
allegations of fraudulent ``ghost workers'' at a Florida port who are 
getting paid and accruing hours for dock jobs they simply are not 
doing. Whether it's a case of stolen identity, or falsifying records, 
honest workers are being penalized.
    Besides investigating after the fact, what tools are at the 
Department's disposal to stop this activity before it begins?
    Answer. This is a common scheme too often encountered by the 
Department of Labor's Office of Inspector General (OIG) labor 
racketeering work. Many of the OIG's labor racketeering investigations 
focus on complex financial schemes used to defraud union and benefit 
fund assets, resulting in millions of dollars in losses to labor unions 
and plan participants.
    The Department's Employee Benefits Security Administration and 
Office of Labor-Management Standards will continue to work closely 
together on labor racketeering matters of mutual concern involving the 
Employee Retirement Income Security Act, Labor Management Relations 
Act, and Labor-Management Reporting and Disclosure Act.
    Further, the Department is coordinating more closely with the 
Department of Justice to encourage criminal prosecution when 
appropriate.
                        overtime for caregivers
    Question. As you know, the Obama Administration revised the rules 
pertaining to the Fair Labor Standards Act to no longer exempt 
caregivers, which were previously exempted from overtime rules since 
it's a profession that directly affects the health of another and it 
could be harmful to have strict limits on hours worked. The rule change 
would require for caregivers to be paid overtime for the hours worked 
beyond 40 hours in a week.
    Have you reviewed the rule and does the Department plan to address 
it? If so, how?
    Answer. I certainly believe Americans who require care services 
should have access to affordable, high quality care that allows them to 
remain in their homes and communities longer. Pursuant to President 
Trump's commitment to review regulations that unnecessarily eliminate 
jobs, inhibit job creation, are unnecessary, or impose costs that 
exceed benefits, the Department of Labor is in the process of reviewing 
several rules. The Department continues to make progress in its 
retrospective review work, as directed by the Executive Orders (EOs) 
13563 (Improving Regulation and Regulatory Review) and 13610 
(Identifying and Reducing Regulatory Burdens) and this review will 
continue in compliance with EO 13771 (Reducing Regulation and 
Controlling Regulatory Costs) and EO 13777 (Enforcing the Regulatory 
Reform Agenda). The Department is engaging in a comprehensive review of 
regulations pursuant to the Executive Orders and will keep your 
concerns in mind as we proceed with the regulatory review process.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
            impact of eta budget cuts on community colleges
    Question. Community colleges are important workforce development 
providers. Every Senator on this Committee can tell you about excellent 
community college partnerships with employers, school districts, and 
others in their states. Community colleges are central to economic 
development, providing credentials, degrees, and apprenticeship 
opportunities to hundreds of thousands of adults and young people 
seeking to secure their place in the middle class. Mr. Secretary, by 
cutting more than $2 billion out of employment and training programs, 
your budget will have a severe negative effect on community colleges.
    What has been your response to community college leaders about the 
effects of these cuts?
    Answer. The Department of Labor has heard from community colleges 
about the important role they play in economic and workforce 
development in their communities. One of the key goals in the 
President's recent Executive Order on Expanding Apprenticeship in 
America is to better align businesses and institutions of higher 
education. Community colleges are an important partner in this work.
    Question. Do you have an estimate of how many community colleges 
workforce programs will close because of these cuts?
    Answer. Ultimately, states and localities will determine how funds 
for employment and education programs are distributed. The Department 
of Labor's performance data tracks the employment outcomes of 
individuals, not how many dollars ultimately flow to community colleges 
or other education and workforce development providers.
                  impacts of merger of ofccp and eeoc
    Question. Secretary Acosta, I am concerned about the budget's 
proposed merger of your Office of Federal Contract Compliance Programs 
(OFCCP) with the Equal Employment Opportunity Commission (EEOC). EEOC 
struggles with huge backlogs of its existing workloads and doesn't have 
any experience enforcing a critical law that promotes and protects the 
employment rights of veterans or other new responsibilities it would 
have to absorb within its flat budget request.
    How would this merger save Federal dollars and not simply lead to 
reduced Federal civil rights enforcement when the agencies involved 
have two very different functions: one responding to individual 
complaints of discrimination and the other making sure that federally-
funded contractors are complying with a broader range of employment 
requirements?
    Answer. Statutory changes to amend portions of Title VII of the 
Civil Rights Act of 1965 establishing the Equal Employment Opportunity 
Commission (EEOC), its structure, the scope of its authority, and its 
general enforcement scheme would be required to begin implementing the 
proposed merger. Under Title VII, the EEOC is primarily complaint 
driven and does not have the authority to require affirmative action or 
to debar Federal contractors. Moreover, the EEOC's enforcement 
structure is judicial in nature while the Office of Federal Contract 
Compliances' (OFCCP) process is administrative in nature using the 
Department of Labor's Administrative Law Judge and Administrative 
Review Board process.
    Similarly, legislative action amending Section 503 of the 
Rehabilitation Act and the Vietnam Era Veterans' Readjustment 
Assistance Act (VEVRAA), creating the Department's authority to enforce 
nondiscrimination and equal employment opportunity through affirmative 
action for individuals with disabilities and veterans, would also be 
required. Executive branch action would be required to amend Executive 
Order (EO) 11246 to provide the EEOC enforcement authority under the 
EO, including enforcing the contractual obligation of nondiscrimination 
in employment based on race, color, religion, sex, sexual orientation, 
gender identity, or national origin. Additionally, the EO prohibits 
Federal contractors and subcontractors from, under certain 
circumstances, taking adverse employment actions against applicants and 
employees for asking about, discussing, or sharing information about 
their pay or the pay of their coworkers. Like Section 503 and VEVRAA, 
the EO requires covered contractors to provide equal employment 
opportunity through affirmative action.
    Ultimately, required statutory changes determined by Congress, in 
addition to new implementing regulations, guidance, and compliance 
assistance developed by the Department and EEOC, would be necessary to 
clarify the agency functions, enforcement structure, and necessary 
funding.
    Question. How will you evaluate what is efficient and inefficient 
when considering this proposed consolidation and the impact that 
potential changes would have on the critical Federal civil rights that 
these agencies are intended to protect?
    Answer. The intent is to preserve the compliance evaluation 
function of the Office of Federal Contract Compliance Programs (OFCCP) 
pursuant to the existing authorities of Executive Order 11246, Section 
503 of the Rehabilitation Act, and the Vietnam Era Veterans' 
Readjustment Assistance Act (VEVRAA)--and not to impact or result in 
reduced civil rights protections. Ultimately, required statutory 
changes determined by Congress, in addition to new implementing 
regulations, guidance, and compliance assistance developed by the 
Department of Labor and the Equal Employment Opportunity Commission 
(EEOC), would be necessary to clarify the structure of any merger.
    Question. Do I have your commitment to support nothing less than 
the current funding level for OFCCP in fiscal year 2018 if specific 
legislation combining these agencies is not approved by Congress in the 
coming months?
    Answer. The Office of Federal Contract Compliance Programs (OFCCP) 
serves an important mission requiring Federal contractors take 
affirmative action and do not discriminate on the basis of race color, 
sex, sexual orientation, gender identity, national origin, disability, 
or status as a protected veteran. Ultimately, required statutory 
changes determined by Congress, in addition to new implementing 
regulations, guidance, and compliance assistance developed by the 
Department and the EEOC, would be necessary to clarify the agency 
functions, enforcement structure, and necessary funding.
              reviewing and amending executive order 11246
    Question. OFCCP administers EO 11246, which prohibits Federal 
contractors from discriminating on the basis of race, sex, religion, 
ethnicity sexual orientation, or gender identity, requires Federal 
contractors to take proactive steps to prevent discrimination and 
increase diversity, and prohibits Federal contractors from retaliating 
against employees for discussing their salaries. Your fiscal year 
Budget Justification states that a primary focus of OFCCP in fiscal 
year 2018 will be drafting and reviewing a new Executive Order amending 
EO 11246. Yet in your testimony in the House Appropriations Committee 
hearing earlier this month, when you were asked whether the amending of 
EO 11246 would change the scope of any of these substantive 
protections, you replied, ``I cannot predict what a redrafted order 
[11246] that I have not seen a draft of, if there is in fact a draft, 
would include.'' But as your budget documents state, this is an effort 
that will take place in your department in the coming fiscal year.
    When your budget documents state that a primary focus of OFCCP in 
the next year will be revising EO 11246, what do you mean for that 
revision to address?
    Answer. The President's fiscal year 2018 Budget proposal includes a 
list of steps that would need to be taken before a merger of the Office 
of Federal Contract Compliance Programs and Equal Employment 
Opportunity Commission (EEOC) could occur, including executive branch 
action and Congressional action. Executive branch action would be 
required to amend Executive Order (EO) 11246 to provide the EEOC 
enforcement authority under the EO, including to enforce the 
contractual obligation of affirmative action and nondiscrimination in 
employment on the basis of race, color, religion, sex, sexual 
orientation, gender identity, or national origin. Additionally, the EO 
prohibits Federal contractors and subcontractors from, under certain 
circumstances, taking adverse employment actions against applicants and 
employees for asking about, discussing, or sharing information about 
their pay or the pay of their coworkers.
    Question. Are you planning to remove or revise the prohibition 
against employment discrimination based on sexual orientation?
    Answer. On January 31, 2017, White House announced it will continue 
to enforce the Executive Order prohibiting employment discrimination 
based on sexual orientation or gender identity in the workplace, and I 
support that decision. The Department of Labor is committed to 
enforcing all anti-discrimination laws under its jurisdiction fully and 
fairly. I believe anti-discrimination laws should prohibit workplace 
discrimination based on sexual orientation or gender identity, although 
I support religious entities' freedom to hire consistent with their 
faith.
    Question. Are you planning to remove or revise the prohibition 
against employment discrimination based on gender identity?
    Answer. On January 31, 2017, White House announced it will continue 
to enforce the Executive Order prohibiting employment discrimination 
based on sexual orientation or gender identity in the workplace, and I 
support that decision. The Department of Labor is committed to 
enforcing all anti-discrimination laws under its jurisdiction fully and 
fairly. I believe anti-discrimination laws should prohibit workplace 
discrimination based on sexual orientation or gender identity. I also 
support religious entities' freedom to hire consistent with their 
faith.
    Question. Are you going to remove or revise protections for workers 
who discuss their pay with colleagues?
    Answer. Discrimination based on gender, including pay 
discrimination, is illegal and it is wrong. Although unfortunate, such 
discrimination does exist. The Department of Labor is committed to 
enforcing all anti-discrimination laws under its jurisdiction fully and 
fairly, including the pay transparency provisions of Executive Order 
11246.
    Question. Are you going to remove or revise the requirement that 
Federal contractors take proactive steps to avoid discrimination and 
promote diversity?
    Answer. I do not intend to remove or revise the requirement that 
requirement that Federal contractors take proactive steps to avoid 
discrimination and promote diversity. The Department of Labor is 
committed to enforcing all anti-discrimination laws under its 
jurisdiction fully and fairly, including the requirement that Federal 
contractors take proactive measures to avoid discrimination and promote 
diversity, pursuant to Executive Order (EO) 11246. At its core, the EO 
requires contractors and subcontractors doing business with the Federal 
Government to take affirmative action, and prohibits discrimination in 
employment, on the basis of race, color, religion, sex, sexual 
orientation, gender identity, or national origin. In addition, 
contractors and subcontractors are prohibited from discriminating 
against applicants or employees because they inquire about, discuss, or 
disclose their compensation or that of others, subject to certain 
limitations.
    Question. Are you going to remove or revise any of the substantive 
protections provided by EO 11246?
    Answer. I do not intend to remove or revise any of the substantive 
protections provided by Executive Order (EO) 11246. The Department of 
Labor is committed to enforcing all anti-discrimination laws under its 
jurisdiction fully and fairly, including the requirements pursuant to 
EO 11246. At its core, the EO requires contractors and subcontractors 
doing business with the Federal Government to take affirmative action, 
and prohibits discrimination in employment, on the basis of race, 
color, religion, sex, sexual orientation, gender identity, or national 
origin. In addition, contractors and subcontractors are prohibited from 
discriminating against applicants or employees because they inquire 
about, discuss, or disclose their compensation or that of others, 
subject to certain limitations.
             gathering further input on the fiduciary rule
    Question. Mr. Secretary, the fiduciary rulemaking process completed 
in 2016 spanned 6 years and included the review of 300,000 petitions 
and thousands of comments. Despite this considerable participation, the 
Trump Administration now intends to ask for more input about the rule. 
This sounds like a waste of taxpayer money, particularly when I keep 
hearing how the Department has to do more with less.
    What do you expect to learn from this additional information 
collection that the Department has not already heard?
    Answer. President Trump, by Memorandum to the Secretary of Labor 
dated February 3, 2017, directed the Department of Labor to examine 
whether the fiduciary rule may adversely affect the ability of 
Americans to gain access to retirement information and financial 
advice, and to prepare an updated economic and legal analysis 
concerning the likely impact of the fiduciary rule as part of that 
examination. We are currently conducting a careful review of the 
fiduciary rule and associated exemptions to decide whether further 
changes are necessary. As part of its ongoing review, including the 
Request for Information published in the Federal Register by the 
Department of Labor on July 6, 2017, the Department will take a careful 
look at all the exemptions' conditions and could propose to eliminate 
or alter the contract conditions based on its findings and the comments 
received from the public.
    Question. How would you get an accurate review of both the benefits 
and costs of the rule before it is fully implemented?
    Answer. The Department is currently conducting a careful review of 
the fiduciary rule and associated exemptions to decide whether further 
changes are necessary. As part of its ongoing review, including the 
Request for Information published in the Federal Register by the 
Department of Labor on July 6, 2017, the Department will take a careful 
look at all the exemptions' conditions and could propose to eliminate 
or alter the contract conditions based on its findings and the comments 
received from the public. Some of the fiduciary rule's provisions 
became applicable on June 9, 2017, and prior to that date, companies 
prepared to come into compliance with the rule. The Department is 
undertaking a public dialog to collect additional information about 
companies' and consumers' experiences so far and expectations for the 
future. In light of that information and other relevant evidence, the 
Department should be able to update the analysis to produce as accurate 
an assessment as is reasonably possible.
                      effects of ilab budget cuts
    Question. Mr. Secretary, President Trump campaigned on ensuring 
fair trade for our nation's workers. Yet, his budget proposes the 
elimination of all grant funding and a 30 percent cut in staffing for 
ILAB, the agency responsible for monitoring and enforcing the labor 
provisions in our trade agreements. The budget vaguely promises to 
accomplish these reductions by ``increasing efficiencies'' and 
``alternative mechanisms'' for assessing labor conditions of our 
trading partners.
    What more can you tell the Subcommittee about how ILAB will achieve 
these savings and these alternative mechanisms?
    Answer. The Bureau of International Labor Affairs (ILAB) is focused 
on ensuring that workers around the world are treated fairly and that 
our trading partners comply with their trade-related labor commitments. 
ILAB's work helps ensure that U.S. workers and businesses are able to 
compete on a fair global playing field.
    ILAB will continue to provide direct technical support to our 
trading partners to improve laws and enforcement. As part of our 
continued technical support, we intend to ask our trading partners to 
do their share by investing more of their own resources to enforce 
their labor laws and fund initiatives to combat child labor and forced 
labor. ILAB will use its existing technical assistance portfolio to 
help combat forced labor and child labor and improve labor enforcement 
and working conditions around the world. ILAB is also focused on 
working with other U.S. Government agencies, such as the Office of the 
U.S. Trade Representative and Department of Homeland Security, as well 
as private sector stakeholders to accomplish its stated goals and 
ensure that U.S. workers and businesses are able to compete on a fair 
global playing field.
    Question. Please provide the Subcommittee with your plan for 
ensuring ILAB can continue to achieve specific outcomes for monitoring 
and enforcing labor provisions of our trade agreements.
    Answer. ILAB is focused on ensuring that workers around the world 
are treated fairly and that our trading partners comply with their 
trade related labor commitments. ILAB's work helps ensure that U.S. 
workers and businesses are able to compete on a fair global playing 
field.
    ILAB will focus on monitoring and enforcing the labor provisions of 
free trade agreements and trade preference programs. Its approach will 
include prioritizing proactive monitoring of labor conditions in key 
countries; expediting the review of trade complaints by streamlining 
procedures; using ILAB experts to provide direct technical support to 
trading partners to improve laws and enforcement; and aggressively 
engaging with trade partners that are deemed to be out of compliance. 
In addition, as part of our continued technical support, we intend to 
ask our trading partners to do their share by investing more of their 
own resources to enforce their labor laws and fund initiatives to 
combat child labor and forced labor. ILAB will use its existing 
technical assistance portfolio to help combat forced labor and child 
labor and improve labor enforcement and working conditions around the 
world.
            maintaining the trade and development act report
    Question. ILAB programming is informed by its rigorous research and 
congressional mandates to assure that trade agreements are adhered to 
and that trade preference programs don't inadvertently reward child and 
forced labor abuses. ILAB mandates include the annual Trade and 
Development Act report and updates to the TVPRA list of goods made with 
forced labor and child labor.
    What is the logic of continuing to issue a thousand page report and 
updating the TVPRA list without using that information to target 
programming against the worst forms of child labor and forced labor 
around the world?
    Answer. The Bureau of International Labor Affairs (ILAB) is focused 
on ensuring that workers around the world are treated fairly and that 
our trading partners comply with their trade-related labor commitments. 
ILAB's work helps ensure that U.S. workers and businesses are able to 
compete on a fair global playing field. ILAB will continue its mandated 
reporting on child labor and forced labor around the world, including 
its List of Goods Produced by Child Labor or Forced Labor, and will 
prioritize its work with countries and businesses to address the 
conditions that lead to inclusion of goods on this list.
    The United States will remain a champion of efforts to eliminate 
abusive labor practices, including forced labor and child labor, around 
the world. ILAB will focus on monitoring and enforcing the labor 
provisions of free trade agreements and trade preference programs. The 
Department's approach will include prioritizing proactive monitoring of 
labor conditions in key countries; expediting the review of trade 
complaints by streamlining procedures; using ILAB experts to provide 
direct technical support to trading partners to improve laws and 
enforcement; and aggressively engaging with trade partners that are 
deemed to be out of compliance. In addition, as part of our continued 
technical support, we intend to ask our trading partners to do their 
share by investing more of their own resources to enforce their labor 
laws and fund initiatives to combat child labor and forced labor.
                       women's bureau budget cuts
    Question. The Women's Bureau is the only agency dedicated to 
identifying and promoting opportunities for women in the workplace. For 
close to 100 years, it has been the leading agency voice on equal pay; 
and it has a track record of performing cutting-edge research and 
policy analysis.
    How will the Women's Bureau be more effective without grant funding 
and far fewer staff? And please don't simply claim `we are doing more 
with less' with this 75 percent cut.
    Answer. While the Women's Bureau's goal of promoting and advancing 
the interests of women who work is important, it is a goal that is 
already supported by other agencies in the Department of Labor. The 
Wage and Hour Division enforces laws that protect women's wages and 
family leave, and the Employment and Training Administration supports 
programs to provide workforce development services for female workers. 
Focusing these agencies on fulfilling those goals while retaining some 
staff at the Women's Bureau to collaborate with and support those other 
Department agencies, will allow the Department to continue to support 
the goals emphasized by the Women's Bureau.
           impact of eliminating susan harwood grant program
    Question. As you know, Secretary Acosta, OSHA cannot reach all of 
the most dangerous workplaces to make sure they are following OSHA's 
basic safety requirements. The President's budget eliminates funding 
for the Susan Harwood grant program that reaches workers in the most 
dangerous jobs with vital education and training to protect them from 
serious job hazards.
    If this program is eliminated, how will these workers get the 
training and education to be able to identify and prevent job hazards?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has a variety of programs and tools available to provide training, 
outreach, and assistance to employers and employees. These include 
Alliances, Strategic Partnerships, On-site Consultation, and targeted 
outreach events, such as the National Safety Stand-Down to Prevent 
Falls in Construction, which provide information on workplace safety 
and health to the public. Training and outreach programs delivered 
directly by the agency can more efficiently provide the same type of 
information provided by the training grants to a broader audience. 
Additionally, many Alliance Program agreements contain a training 
element, and numerous training and information resources are available 
on OSHA's website. The President's fiscal year 2018 Budget proposal 
includes an increase of $4 million and 20 full-time equivalent workers 
for OSHA to support additional compliance assistance, outreach, and 
training.
    OSHA will continue its strong commitment to, and emphasis on, the 
enforcement of standards and regulations that serve as an effective 
deterrent to employers who put their workers' lives at risk. OSHA's 
budget request reflects a commitment to reduce workplace injuries, 
illnesses and fatalities through a balanced approach of both 
enforcement and compliance assistance.
    Question. Why isn't training high risk workers about safety and 
health hazards and control measures a priority for this administration?
    Answer. Training workers in high-risk industries about safety, 
health hazards and control measures is a priority for the Department of 
Labor. The President's fiscal year 2018 Budget proposal includes an 
increase of $4 million and 20 full-time equivalent workers for OSHA to 
support additional outreach and training to workers in high-hazard 
industries. This includes funds for additional Compliance Assistance 
Specialists, new training materials, and support for the agency's 
Cooperative Programs, Partnerships, and Alliances.
                continuing strategic enforcement efforts
    Question. Secretary Acosta, will you commit to use the limited 
resources at your disposal to protect our nation's most vulnerable 
workers by continuing the strategic enforcement efforts the Department 
has developed and implemented?
    Answer. The Department of Labor understands its responsibility to 
use taxpayer resources wisely. To that end, the Department will use 
strategic enforcement, especially in high violation areas, along with 
enforcement of individual complaints, as a balanced enforcement 
strategy.
            public reporting of enforcement action findings
    Question. Secretary Acosta, can you commit to continuing to devote 
DOL resources to communicating to the public the results and findings 
of major enforcement actions as a way to maximize the effect of 
enforcement on compliance and ensure industry's awareness of labor 
standards?
    Answer. As a former United States Attorney I am keenly aware of the 
importance of communicating to the public how the Department carries 
out its mission on their behalf and explaining how the Department views 
certain actions by workers or employers. The Department uses a variety 
of tools at its disposal to educate the public including, but not 
limited to, news releases, compliance assistance, and opinion letters. 
I do not intend to discontinue the practice of issuing news releases 
outlining the Department's enforcement work when deemed appropriate 
based on the totality of the facts and circumstances in a given case.
          advisory board on toxic substances and worker health
    Question. Secretary Acosta, during your confirmation process we 
discussed the Energy Employees Occupational Illness Compensation 
Program Act (EEOICPA) program. As a senator from the state of 
Washington, EEOICPA is really important to me because we have thousands 
of workers and their families at the Hanford Nuclear Reservation 
located in the Tri-Cities who helped America win World War II and the 
Cold War and continue to support a critical cleanup mission at Hanford. 
For years, I have been battling the slow and complex process that these 
heroes deal with in trying to secure the compensation and care promised 
them in a fair and timely manner. In 2014, Congress established the 
Advisory Board on Toxic Substances and Worker Health to assist the 
Department in improving the program and process for workers to receive 
the healthcare and benefits they have earned. The Advisory Board has 
issued numerous recommendations to the Department following meetings at 
the Oak Ridge site in October 2016 and the Hanford site in April 2017, 
however, to date the Department has only acted upon one. I urge you to 
quickly review the Advisory Board's recommendations.
    Can you provide me with a status report on each of the Advisory 
Board's recommendations?
    Answer. I agree that the Energy Employees Occupational Illness 
Compensation Program (EEOICPA) is an important program. I consider the 
timely adjudication and payment of claims to these workers and their 
families a priority. The Department is working to provide the Advisory 
Board on Toxic Substances and Worker Health (Advisory Board) access to 
the information and data needed to carry out their work.
    The Advisory Board has submitted two sets of recommendations since 
its formation, both of which are currently under review. The Department 
expects to have responses to the first set of recommendations shortly 
and complete the review of the second set of more complex 
recommendations later this year. It should be noted that the Department 
has already communicated its agreement with two of the Advisory Board's 
recommendations.
            responding to congressional information requests
    Question. Secretary Acosta, recent news reports indicate that 
Federal agencies have been told by the White House to ignore 
information requests from the Minority. This greatly disturbs me. 
Performing oversight of the executive branch is a longstanding 
responsibility of this Committee, and one that Senators of both parties 
take seriously.
    Will you commit to responding to all of my and minority member 
written requests for information, in full, and in a timely manner?
    Answer. I have the utmost respect for Congress and want to be very 
clear: I have instructed my staff to provide responses to all Members 
of Congress.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                 reduction to wioa state formula grants
    Question. Your budget request would reduce funding for the 
Workforce Innovation and Opportunity Act (WIOA) state formula grants 
for adults, dislocated workers, and youth by over forty percent. 
According to your estimates, this will reduce the number of individuals 
served by over 2.5 million. The rationale given for the massive 
decrease is that the Administration is ``shifting more responsibility 
to funding these services to the states, localities, and employers.''
    Please provide details of any consultation the Department of Labor 
has undertaken with states, localities, and employers, in developing 
the budget proposal.
    Answer. The President's fiscal year 2018 Budget proposal maximizes 
flexibility and allows a greater role for states, local communities, 
businesses, and public-private partnerships in a way that best meets 
each state's needs.
    Question. Please provide information on any analysis the Department 
performed in determining the capacity of states, localities, and 
employers to take on this increased responsibility for funding 
workforce development programs.
    Answer. The Department of Labor often hears from Governors, states, 
and municipalities, about the need for more flexibility with Federal 
funds. The President's fiscal year 2018 Budget proposal provides much 
of this flexibility. For example, the President's Budget would allow 
greater flexibility in using state Set-Aside funds allowing states to 
prioritize which activities to pursue; waive certain administrative and 
reporting requirements pursuant to the Workforce Innovation and 
Opportunity Act (WIOA); and enable states to re-designate local areas 
without current regulatory red tape providing automatic designations.
                     job corps center closure plans
    Question. In addition to the proposed massive cuts to the WIOA 
state formula grant for youth, the Administration has proposed to cut 
Job Corps by over $250 million. The proposal suggests closing low-
performing centers and other ``strategically-selected Job Corps 
Centers.''
    Please provide information of the methodology the Department 
intends to use to make each type of closure determination and the 
process used to develop such methodology.
    Answer. Job Corps is conducting a programmatic assessment of 
performance center by center, surveying physical facilities, assessing 
programmatic sustainability, and considering the job training needs in 
each state and area served by a Job Corps center. The Department of 
Labor then will develop recommendations and determinations, which will 
inform how the program's fiscal year 2018 resources can be 
appropriately allocated.
    Question. Does the Department plan to increase student enrollment 
at high performing centers?
    Answer. It is the Department of Labor's expectation that through 
concentration of Job Corps activities in higher performing centers, we 
will continue serving as many students as possible in a more efficient 
way, with increased quality and with better outcomes.
    Question. Under the Department's request, how many students will 
participate in Job Corps?
    Answer. The Department of Labor would prioritize current Job Corps 
participants, allowing them to complete their Job Corps training either 
at their current center or at another center. The program will work to 
serve as many current and new participants as possible under an 
approach that focuses on increased quality and better outcomes for Job 
Corps students.
           coordinating job corps and apprenticeship programs
    Question. The Administration has emphasized the apprenticeship 
model. Job Corps has been preparing low-income students for 
apprenticeships for 50 years. All Job Corps centers provide this 
chronically underserved population with the education and industry-
recognized credentials required to succeed in apprenticeships in high 
need industries.
    How will the Department of Labor incorporate Job Corps into its 
plans for increasing apprenticeship opportunities?
    Answer. The President's recent Executive Order on Expanding 
Apprenticeships in America specifically directs the Secretary of Labor 
and other Cabinet leaders to work together to promote youth 
participation in apprenticeships and pre-apprenticeships. The 
Department takes this responsibility seriously. The Office of Job Corps 
is focused on increasing direct entry into high-quality 
apprenticeships--and the education and training Job Corps Centers 
provide to under-served populations provides ``pre-apprenticeship'' 
preparation for young people.
                        training job corps staff
    Question. There have been reports that the Employment and Training 
Administration's Contract Management Office has been denying training 
requests. Without consistent and on-going training, the quality of 
services, as well as the safety and security of the students and staff, 
is compromised.
    How does the Department plan to organize the management structure 
for Job Corps?
    Answer. The Department of Labor agrees that consistent and ongoing 
training is critical to the success of the Job Corps program. However, 
the Department selects eligible private contractors to provide 
operational services for Job Corps centers in part based on the 
contractor's affirmation that it can perform the services in accordance 
with the terms and conditions of the contract. Although the Department 
will provide any training deemed to be unique to the Job Corps program, 
it is the contractor's responsibility to ensure its employees possess 
the appropriate training under the contract.
    Question. Please share the Department's approach to professional 
development and training for Job Corps contractor staff and Department 
of Labor staff who have a role in administering the Job Corps program.
    Answer. Department of Labor staff that administer the Job Corps 
program are trained by the Department. However, the Department selects 
eligible private contractors to provide operational services for Job 
Corps centers in part based on the contractor's affirmation that it can 
perform the services in accordance with the terms and conditions of the 
contract. Although the Department will provide any training deemed to 
be unique to the Job Corps program, it is the contractor's 
responsibility to ensure its employees possess the appropriate training 
under the contract.
                      paid parental leave proposal
    Question. Please explain the rationale for restricting the paid 
leave proposal to new parents rather than supporting paid leave for the 
same circumstances allowed under the Family and Medical Leave Act.
    Answer. As a preliminary matter, the President's paid parental 
leave program would require Federal legislation and the Department of 
Labor is ready to work with Congress on the details of the legislation. 
The paid parental leave program is designed as a way to provide a paid 
leave benefit to help new parents bond with, and care for, their new 
children.
            paid parental leave impact on state ui programs
    Question. According to DOL's 2017 Solvency of State Unemployment 
Trust Funds report, only twenty-one states had the minimum level of 
adequate solvency to support their unemployment systems at the 
beginning of 2017. One state program and one jurisdiction have roughly 
$3.9 billion in outstanding Federal loans, and six other states have 
$7.1 billion in outstanding private loans.
    Why did the Administration choose to fund its paid leave proposal 
through state unemployment trust funds, and has the Administration 
studied the financial burden the proposal will place on state 
unemployment programs?
    Answer. As a preliminary matter, the President's paid parental 
leave program would require Federal legislation and the Department of 
Labor is ready to work with Congress on the details of the legislation. 
The President's fiscal year 2018 budget proposed a package of mandatory 
savings proposals to improve UI program integrity and solvency, 
including minimum solvency standards. The benefits and program 
administration of the President's paid parental leave plan, including 
start-up costs, would be fully offset by proposals designed to reduce 
improper UI payments and improve the solvency of state accounts within 
the Unemployment Trust Fund. Like the Federal-state UI program, the 
Federal Government would provide administrative funding for the 
program's operating costs. The states would be responsible for the cost 
of paying benefits from their state UI funds from state-levied 
revenues. In addition, states would be responsible for ensuring they 
have sufficient resources to fund benefits for the UI program and the 
states' paid parental leave programs.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
            job corps student enrollment and center closures
    Question. During your testimony you stressed the importance and the 
success rate of apprenticeships. Additionally, President Trump recently 
signed an Executive Order that would increase funding for 
apprenticeship programs, while at the same time scaling back the 
Federal Government's involvement.
    However, your budget proposal ignores some of the most successful 
investments that the Federal Government makes in preparing students for 
apprenticeships, specifically the Job Corps program. The 126 Job Corps 
Centers across the country provide low-income and at-risk youth with 
the education and industry-recognized credentials required to succeed 
in apprenticeships in high need industries.
    This is a training opportunity that New Hampshire students are just 
beginning to benefit from, having opened our first Job Corps Center in 
Manchester in 2015--something I had advocated for since my time as 
Governor. Recently, I convened a meeting of my Small Business Advisory 
Committee at the Manchester Campus and company representatives were 
given an opportunity to tour the facility and meet some of the 
students. One of those companies was so impressed by the training this 
program provides, they offered one of the students a job right there on 
the spot.
    That is why I'm so disappointed to see that rather than making a 
strong investment in a technical training program that reaches students 
in all 50 states, your budget proposes cutting nearly $250 million from 
current spending levels and indicates that the Administration will aim 
to close some centers rather than working with them to improve their 
services.
    Has the Department fully considered the success Job Corps has had 
in preparing students to enter in-demand, 21st century occupations and 
if so, can you speak to how you plan to prioritize the program and help 
it reach its maximum student capacity?
    Answer. In order to prepare the American workforce, including young 
workers, for a rapidly changing economy and close the skills gap, the 
Department of Labor must prioritize the programs that are proven to 
work, such as apprenticeships. The Department is considering the 
performance of Job Corps in preparing students to enter in-demand, 21st 
century occupations. The Department is reviewing the effectiveness of 
the program to ensure it provides the best outcomes for its students by 
expanding participants' opportunities for jobs in high-growth 
industries.
    Question. Additionally, can you provide more details on the 
comprehensive assessment of centers you have proposed to as a way to 
judge their success? What criteria will be used in the evaluation and 
how do you plan to communicate and work with the centers individually?
    Answer. Job Corps' programmatic assessment will consider each 
center's performance--particularly job attainment--, physical 
facilities programmatic sustainability, and the education and workforce 
development needs in each state and area served by a Job Corps center.
            role of state funding for job training programs
    Question. In your testimony you talked about the Department's 
efforts to meet the needs of today's workforce and to address the 
widening skills gap that makes it harder for employers to find suitable 
workers. That is a mission I support and in New Hampshire, I 
consistently hear from businesses who tell me it's increasingly 
difficult to find employees with the required skillsets and I also hear 
from unemployed workers who need help getting the necessary training to 
compete in this evolving job market.
    That's why I am disappointed that while you seem to be advocating 
for strong workforce development efforts, your Department's proposed 
budget decimates the very programs designed to make to invest in those 
efforts. Furthermore, your budget justifies these cuts by shifting 
responsibility back to states and localities, clearly expecting them to 
take on additional cost burden left by these cuts.
    Your budget would cut more than $1.6 million from New Hampshire's 
job training programs and would result in more than 4,000 workers 
losing assistance through the State's Office of Workforce Opportunity. 
The bipartisan passage of the Workforce Innovation and Opportunity Act 
(WIOA) just 3 years ago serves as the recognition of the importance of 
these Federal investments. States need more resources, not less. That 
is why I've consistently introduced legislation that would provide 
additional grants to states specifically for On-the-Job Training 
programs, a model that's been particularly successful connecting 
unemployed workers and employers in New Hampshire. So, my question to 
you is,
    Do you agree that the Federal Government has a responsibility to 
invest in workforce development and to continue funding these programs 
that have proved successful in improving employment rates and economic 
output in my state and many others? (If the answer is ``yes'') And do 
you feel that it's realistic to expect states, like New Hampshire that 
have relied on these Federal programs for many years to take on more 
responsibility for funding job training and to shoulder a larger 
funding burden?
    Answer. The Department of Labor often hears from Governors, states, 
and municipalities, about the need for more flexibility with Federal 
funds. The President's fiscal year 2018 Budget proposal provides much 
of this flexibility. For example, the President's Budget would allow 
greater flexibility in using State Set-Aside funds allowing states to 
prioritize which activities to pursue; waive certain administrative and 
reporting requirements pursuant to the Workforce Innovation and 
Opportunity Act (WIOA); and enable states to re-designate local areas 
without current regulatory red tape providing automatic designations.
    Question. Did you consult with state agencies, local workforce 
development boards or business leaders to get a sense of how these cuts 
would be absorbed or addressed by state budget was feasible before 
making your proposal?
    Answer. Ultimately, states will determine how funds for workforce 
development programs are distributed based on the specific needs of 
those states and localities. The President's fiscal year 2018 Budget 
proposal provides many of the flexibilities the Department of Labor 
often hears about from Governors, states, and localities. For example, 
the President's Budget would allow greater flexibility in using State 
Set-Aside funds allowing states to prioritize which activities to 
pursue; waive certain administrative and reporting requirements 
pursuant to the Workforce Innovation and Opportunity Act (WIOA); and 
enable states to re-designate local areas without current regulatory 
red tape providing automatic designations.
                            osha reductions
    Question. While I am concerned about adequate investment in our 
nations' workforce development, the fact is that guaranteeing a job for 
every American is not enough. We have to ensure that the jobs available 
are safe, secure and not hazardous to the health of our working men and 
women. That is why I am disappointed to see that your budget makes such 
steep cuts to the Occupational Safety and Health Administration (OSHA). 
OSHA is tasked with helping employers meet Federal safety standards and 
holding accountable those that violate those standards. The agency's 
inspectors are responsible for protecting millions of workers at a vast 
number of workplaces across the country. Cutting the office's budget 
will only make it harder for OSHA to manage its oversight 
responsibilities.
    I was particularly disappointed to see your proposal eliminates the 
Susan Harwood Training Grant program. These grants help provide 
training and education to workers that in turn help deter accidents and 
avoid future risks. Organizations like the New Hampshire Coalition for 
Occupational Health and Safety rely on these grants to help reach and 
educate vulnerable workers year after year.
    Can you speak to the justification behind the cuts to OSHA and 
elaborate on how you expect the agency to complete its core mission and 
increase workplace safety across the country when its funding has been 
slashed by more than $500 million?
    Answer. The President's fiscal year 2018 Budget includes $543 
million for the Occupational Safety and Health Administration (OSHA), 
and proposes to eliminate the Harwood Grant program in favor of 
leveraging alternative methods to develop and deliver training, 
including OSHA-produced materials. To assist in this effort, the 
President's fiscal year 2018 Budget proposal for OSHA includes an 
increase of $4 million and 20 full-time equivalent employees in the 
Federal Compliance Assistance budget activity to expand OSHA's 
training, outreach, compliance assistance, and cooperative programs, 
including the Voluntary Protection Program.
    Question. Can you also speak to the justification behind the 
elimination of the Susan Harwood Training grants and will the 
Department reconsider funding this very effective program?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has a variety of programs and tools available to provide training, 
outreach, and assistance to employers and employees. These include 
Alliances, Strategic Partnerships, On-site Consultation, and targeted 
outreach events, such as the National Safety Stand-Down to Prevent 
Falls in Construction, which provide information on workplace safety 
and health to the public. Training and outreach programs delivered 
directly by the agency can more efficiently provide the same type of 
information currently provided by the training grants to a broader 
audience. Additionally, many Alliance Program agreements contain a 
training element, and numerous training and information resources are 
available on OSHA's website. The President's fiscal year 2018 Budget 
proposal includes an increase of $4 million and 16 full-time equivalent 
workers for OSHA to support additional compliance assistance, outreach, 
and training.
    OSHA will continue its strong commitment to, and emphasis on, the 
enforcement of standards and regulations that serve as an effective 
deterrent to employers who put their workers' lives at risk. OSHA's 
budget request reflects a commitment to reduce workplace injuries, 
illnesses and fatalities through a balanced approach of both 
enforcement and compliance assistance.
                       women's bureau reductions
    Question. Your budget proposes yet another cut that I find 
concerning. Your proposal would eliminate approximately 75 percent of 
the funding for the Department of Labor's Women's Bureau--the only 
Federal office dedicated to advancing the interests of women in the 
workplace. The Women's Bureau develops standards, conducts inquiries to 
safeguard the interests of working women and advocates for equality and 
economic security for the female workforce.
    The Bureau has issued instruction and guidance on the subjects of 
labor, job training, STEM for young girls and provided the vital 
statics which have been helpful in setting labor targets and incentives 
in New Hampshire for female workers.
    Do you feel that it's important to promote policies that improve 
the working conditions and expand economic opportunities for women 
workers in this country?
    Answer. Women in the workforce make critical, impactful, and 
irreplaceable contributions to the economy. I fully support efforts to 
improve working conditions and expand economic opportunities for women, 
especially in fields where they have been historically 
underrepresented.
    Question. If so, how does the Department plan accomplish that goal 
and what role will the Women's Bureau play given your proposed 
restrictive budgetary limits?
    Answer. While the Women's Bureau's goal of promoting and advancing 
the interests of women who work is important, it is a goal that is 
already supported by other agencies in the Department of Labor. The 
Wage and Hour Division enforces laws that protect women's wages and 
family leave, and the Employment and Training Administration supports 
programs to provide workforce development services for female workers. 
Focusing these agencies on fulfilling those goals while retaining some 
staff at the Women's Bureau to collaborate with and support those other 
Department agencies, will allow the Department to continue to support 
the goals emphasized by the Women's Bureau.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
          women in apprenticeship (wanto) program elimination
    Question. The Women in Apprenticeship and Nontraditional 
Occupations Act (WANTO), jointly administered by the Women's Bureau and 
the Employment and Training Administration, is the only Federal program 
designed specifically to help women enter nontraditional occupations, 
defined by the Department of Labor as those in which women make up 25 
percent or less of total employment.
    Unfortunately, the Department's fiscal year 2018 budget eliminates 
all funding WANTO based on the false understanding that the purposes of 
WANTO could be addressed more efficiently and effectively through new 
investments aimed at expanding Registered Apprenticeships. While the 
Federal investment in Registered Apprenticeships is important and will 
serve to meet growing industry demand for skilled workers, industry 
sectors which are considered ``nontraditional'' for women--meaning that 
fewer than 25 percent of the workforce in those occupations or 
industries are women--will remain as such without funding to implement 
best practices, including targeted outreach, recruitment, pre-
apprenticeship training, and technical assistance for industry 
stakeholders. Occupational segregation is costly to our nation's 
families as women will lack access to high-wage, high-skilled 
employment and apprenticeship, and industry will have American jobs in 
demand unmet by a diverse and skilled talent pool.
    Which organizations or individuals did the Department consult with 
before deciding to eliminate funding for WANTO in the fiscal year 2018 
budget?
    Answer. The Department of Labor consulted with key stakeholders 
throughout industry, community based organizations, states, workforce, 
and educations entities, among others, and subsequently determined it 
can better serve underrepresented groups, including women, through 
other programs and activities.
    Within the Department, the Office of Apprenticeship works closely 
with the Women's Bureau to improve the Department's ability to increase 
apprenticeship and non-traditional job opportunities for women and 
underrepresented populations.
    Question. Did the Department consult with WANTO grantees, women 
seeking pre-apprenticeship training, or any other organization or 
industry stakeholder serving women preparing to enter the trades before 
deciding to eliminate funding for WANTO in the fiscal year 2018 budget?
    Answer. The Department of Labor consulted with key stakeholders 
throughout industry, community based organizations, states, workforce, 
and educations entities, among others, and subsequently determined it 
can better serve underrepresented groups, including women, through 
other programs and activities.
    Within the Department, the Office of Apprenticeship works closely 
with the Women's Bureau to improve the Department's ability to increase 
apprenticeship and non-traditional job opportunities for women and 
underrepresented populations.
    Question. If the Department eliminates funding for WANTO, the only 
Federal source of funding dedicated to providing resources, pre-
apprenticeship training, and technical assistance to women in non-
traditional employment and registered apprenticeships, what steps will 
the Department take to ensure more women are prepared to enter, 
successfully enroll in, and complete Registered Apprenticeship 
programs?
    Answer. The fiscal year 2017 report language requires the 
Department of Labor to ``prioritize grant applications that engage, 
recruit, and serve women and other underrepresented populations.'' As 
the Department works to create strategies with other education and 
workforce development investments, increasing access for, and 
engagement of, underrepresented populations will remain a focus. 
Additionally, the regulations for Equal Employment Opportunity (EEO) in 
Registered Apprenticeship (29 CFR part 30) serve to ensure and expand 
apprenticeship opportunities for Women in non-traditional occupations 
and other underrepresented populations.
          eliminating the susan harwood training grant program
    Question. The Department is proposing to eliminate funding in the 
fiscal year 2018 budget for the Susan Harwood Training Grant program, 
which provides grant awards to non-profit organizations to provide 
direct and train-the-trainer training and education to workers on 
safety and health hazards in the workplace. The Department justifies 
the elimination these grants on the theory that eliminating funding 
will ``maximize flexibility'' and allow the Department to save money by 
providing direct training in place of the Susan Harwood grants.
    In light of the proposed 21 percent total budget cut to the 
Department, how exactly will the Department ``do more with less'' with 
respect to worker safety without the Susan Harwood Training Grant 
program?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has a variety of programs and tools available that provide training, 
outreach, and assistance to employers and employees. These include 
Alliances, Strategic Partnerships, On-site Consultation, and targeted 
outreach events, such as the National Safety Stand-Down to Prevent 
Falls in Construction, which provide information on workplace safety 
and health to the public. Training and outreach programs delivered 
directly by the agency can more efficiently provide the same type of 
information provided by the training grants to a broader audience. 
Additionally, many Alliance Program agreements contain a training 
element, and numerous training and information resources are available 
on OSHA's website. The President's fiscal year 2018 Budget proposal 
includes an increase of $4 million and 20 full-time equivalent workers 
for OSHA to support additional compliance assistance, outreach, and 
training.
    Question. Though workplace fatalities and serious injuries are 
decreasing overall, both are increasing among Latino workers. What 
steps will the Department take to specifically address subgroups of 
workers who are experiencing rising fatalities and serious injuries?
    Answer. Training all workers, including Latino workers, who work in 
high-risk industries on workplace safety, health hazards, and control 
measures is a priority for the Occupational Safety and Health 
Administration (OSHA). OSHA has 174 Compliance Safety and Health 
Officers, Compliance Assistance Specialists (CASs), and other staff who 
have intermediate or fluent language skills in Spanish. In addition, 
OSHA's entire website is available in Spanish, including many 
publications that address hazards (e.g., fall protection, electrical 
safety) faced by Latino workers.
    The President's fiscal year 2018 Budget proposal includes an 
increase of $4 million and 20 full-time equivalent workers for OSHA to 
support additional compliance assistance, outreach, and training. This 
includes funds for additional CASs, new training materials, 
publications, and support for the agency's Cooperative Programs, 
Partnerships and Alliances to address hazards faced by workers in high-
risk industries who are experiencing rising fatalities and serious 
injuries. In addition, OSHA uses its National, Regional, and Local 
Emphasis Programs to target its enforcement activities in industries 
where fatalities and serious injuries occur.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
       osha investigation of container life cycle management, llc
    Question. Secretary Acosta, I am concerned that the Occupational 
Safety and Health Administration's (OSHA) investigation of Container 
Life Cycle Management LLC (CLCM) in Milwaukee, WI has been incomplete. 
Subsequently, I believe the citations filed against the company do not 
fully reflect the seriousness of the threats to the health and safety 
of Wisconsin workers in the company's three Wisconsin facilities and I 
remain concerned that OSHA has only investigated the facility on 
Cornell Street in Milwaukee but not the facilities in Oak Creek and St. 
Francis, Wisconsin. I urge you to direct OSHA to investigate the two 
other facilities in the Milwaukee-area in St. Francis and Oak Creek. I 
made this request of Deputy Assistant Secretary Dougherty on May 1, 
2017, but have yet to receive a response. Please confirm that OSHA will 
investigate these two facilities.
    Evidence provided to my office by a whistleblower makes clear that 
the violations for which CLCM was cited by OSHA are insufficient. Audio 
recordings with managers at the firm make clear that the health and 
safety violations were intentional and would not be changed, despite 
the recommendations of a safety consultant.
     Please explain why the violations at CLCM were not considered 
`willful' by OSHA?
    Answer. With regard to your specific question about Container Life 
Cycle Management (CLCM), the Occupational Safety and Health 
Administration (OSHA) issued ten Serious citations and four Other-than-
Serious citations on April 12, 2017, with proposed penalties of 
$108,461. These citations and the penalty amounts appropriately 
reflected the conditions observed at the time of the inspection and the 
evidence collected. Container Life Cycle Management, LLC, filed a 
notice of contest with respect to these citations on May 2, 2017, and 
the Office of the Solicitor filed the case with the Occupational Safety 
and Health Review Commission on June 20, 2017, pursuant to departmental 
procedures. Therefore, because the relevant citations and underlying 
facts related to them are the subject of ongoing litigation, I cannot 
discuss the classification or the penalties at this time. If, during 
the course of this pending litigation, the Office of the Solicitor 
obtains additional information related to these citations, that office 
will have the opportunity to reevaluate the designation of the 
citations as serious or willful and can, if warranted, seek to amend 
the classification of any pending citation.
    On August 3, 2017, OSHA began an inspection of the St. Francis 
facility based on information provided to the agency's regional office 
by the Environmental Protection Agency. Upon the conclusion of that 
inspection, OSHA has 6 months from the occurrence of a violation to 
issue additional citations. It is important to note that OSHA may only 
inspect a workplace when it has administrative probable cause to 
believe that a violation exists. OSHA will continue to work with our 
state and Federal partners including the U.S. Department of 
Transportation (Office of Hazardous Materials Safety), the Wisconsin 
Department of Natural Resources, and the Environmental Protection 
Agency, to determine if there are any on-going or recurring hazardous 
conditions. If OSHA receives information sufficient to provide probable 
cause for an inspection of these, or any facilities, it may conduct an 
inspection pursuant to Section 8(f)(1) of the Occupational Safety and 
Health Act.
            impact of cutting susan harwood training grants
    Question. Secretary Acosta I am concerned that cuts to the OSHA 
budget and Susan Harwood training grants will lead to an increase in 
preventable workplace injuries and deaths.
    How can you assure me that employers will have the resources they 
need to adequately learn to take adequate safety measures, and that 
OSHA will continue to have resources to investigate violations?
    Answer. The Occupational Safety and Health Administration (OSHA) 
has a variety of programs and tools available to provide training, 
outreach, and assistance to employers and employees. These include 
Alliances, Strategic Partnerships, On-site Consultation, and targeted 
outreach events, such as the National Safety Stand-Down to Prevent 
Falls in Construction, which provide information on workplace safety 
and health to the public. Training and outreach programs delivered 
directly by the agency can more efficiently provide the same type of 
information provided by training grants to a broader audience. 
Additionally, many Alliance Program agreements contain a training 
element, and numerous training and information resources are available 
on OSHA's website. The President's fiscal year 2018 Budget proposal 
includes a program increase of $4 million and 20 full-time equivalent 
workers for OSHA to support additional compliance assistance, outreach, 
and training.
    OSHA will continue its strong commitment to, and emphasis on, the 
enforcement of standards and regulations that serve as an effective 
deterrent to employers who put their workers' lives at risk. OSHA's 
budget request reflects a commitment to reduce workplace injuries, 
illnesses and fatalities through a balanced approach of both 
enforcement and compliance assistance.
                    effects of job corps budget cuts
    Question. The Department's budget request states that ``Job Corps 
graduates will be more competitive in the 21st century workforce as a 
result of increases in academic and career technical training 
credential attainment, supported by increases in numeracy and 
literacy.'' These increases in academic and career technical training 
performance will require highly skilled and highly trained instructors. 
Job Corps currently competes with the public schools for the best 
teachers, who often are able to provide higher wages and summers off.
    How will loss of funds affect job Corps' ability to hire, train, 
and retain the best instructors?
    Answer. The Department of Labor continues its work to maximize the 
impact of the funding that Congress provides the Job Corps program. The 
Department is committed to streamlining or eliminating programs based 
upon a rigorous analysis of available data to assess programmatic 
effectiveness. Regardless of the final budget for the program, the 
Department will continue these efforts and will use available data to 
ensure that the contractors the Department selects to run Job Corps 
centers are those best equipped to hire, train, and retain high-quality 
instructors. In addition to the core function of the Job Corps program, 
the Department is focused on strengthening the safety and security of 
Job Corps students and staff.
                                 ______
                                 
           Questions Submitted by Senator Christopher Murphy
          impact of cuts to job training programs for seniors
    Question. In April 2016, to help address the long-term joblessness 
of older adults, Congress overwhelmingly approved a long-term extension 
of the Senior Community Service Employment Program (SCSEP) as part of 
the reauthorization of the Older Americans Act. Unfortunately, the 
Administration's fiscal year 2018 budget proposes to eliminate SCSEP, 
even though the program has exceeded its performance goals. The 
President's budget expects that the employment needs of older workers 
will be ``addressed through the Workforce Innovation and Opportunity 
Act (WIOA) programs.'' Yet the Department's budget also slashes the 
WIOA Adult and WIOA Dislocated Worker Programs by 39 percent each--
removing a staggering $730 million from these critical WIOA job-
training programs. We know that many states, including my state, will 
not be able to make up the funding shortfall left by the President's 
budget. The National Governor's Association recently told Appropriators 
that, ``state economies will be at risk'' without job training 
investments.
    Can you explain how older workers will be served if older worker 
job training programs are eliminated, especially considering your 
budget also cuts job training for all populations?
    Answer. The President's fiscal year 2018 Budget proposal maximizes 
flexibility and allows a greater role for states, local communities, 
businesses, and public-private partnerships. The President's Budget 
proposal determined that the Senior Community Service Employment 
Program (SCSEP) is not a cost-effective mechanism to help older adults 
find and hold unsubsidized employment opportunities. Older workers, 
like all workers, will be better served by streamlined, effective job 
training programs and by programs that are controlled at the state and 
local level based on each state's specific needs.
    Question. How do you plan to assist the 65,000 older workers who 
will lose their SCSEP training jobs under your proposal to eliminate 
SCSEP?
    Answer. The President's fiscal year 2018 Budget proposal maximizes 
flexibility and allows a greater role for states, local communities, 
businesses, and public-private partnerships. The President's Budget 
proposal determined that the Senior Community Service Employment 
Program (SCSEP) is not a cost-effective mechanism to help older adults 
find and hold unsubsidized employment opportunities. Older workers, 
like all workers, will be better served by streamlined, effective job 
training programs and by programs that are controlled at the state and 
local level based on each state's specific needs.
    Question. Why in your budget documents did you state that SCSEP is 
not meeting its performance goals when the fiscal year 2018 
Congressional Budget Justification for the Employment and Training 
Administration clearly states that for the last program year for which 
data is listed, the program does indeed meet these goals?
    Answer. The Senior Community Service Employment Program (SCSEP) is 
designed to be a work-based job education program for older Americans, 
serving as a bridge to unsubsidized employment opportunities. In 
Program Year 2015 (the most recent year for which data are available), 
the SCSEP placed fewer than half of participants in unsubsidized jobs, 
a percentage that excludes as many as one-third of those individuals 
who failed to complete the program. Other workforce programs designed 
to serve low-income adults are better positioned to assist seniors.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
                     miners' pension protection act
    Question. Secretary Acosta, as I'm sure you know, the 1974 Pension 
Plan for our nation's retired miners is headed for insolvency due to 
coal company bankruptcies and the 2008 financial crisis.
    This pension plan is just one piece in a much larger multi-employer 
pension plan problem that we must address as quickly as possible, but 
to the thousands of miners who earned these pensions over a lifetime of 
hard and dangerous work, these small pensions are the difference 
between paying the bills or being kicked out of their house, putting 
food on their tables or going hungry.
    Time is of the essence--the longer we wait to solve this problem 
the more expensive and more difficult it becomes. I introduced the 
Miners Pension Protection Act earlier this year with 21 bipartisan co-
sponsors who understand the urgency of this problem.
    Secretary Acosta, is the Department of Labor actively working on 
solutions to this problem?
    Answer. It is critical to address the security of our pension 
system and the Department is committed to working with Congress and 
stakeholders to ensure the stability of the multiemployer plan system-- 
promoting retirement security is part of the Department's mission and 
simply good public policy. America's retired coal miners, and other 
workers in multiemployer plans, have worked hard for their pensions 
they reasonably expect upon retirement. The Department is working with 
the Pension Benefit Guaranty Corporation (PBGC) and the Departments of 
Treasury and Commerce regarding possible solutions to the concerns 
facing multiemployer plans.
    Question. Will you commit to working with me and other members of 
the Senate to find a solution by the end of the year?
    Answer. The Department is committed to working with Congress and 
stakeholders to address the security of multiemployer pension plans, 
including the 1974 Pension Plan. As you know, the solution is not 
simple, but be assured the Department is working with Pension Benefit 
Guaranty Corporation (PBGC) and the Departments of Treasury and 
Commerce regarding possible solutions to the concerns facing 
multiemployer plans.
         mine safety and health administration funding request
    Question. The basic underlying premise of MSHA's mission is to 
prevent miner fatalities and accidents. Coal mining is an inherently 
dangerous occupation; in 2016, eight miners succumbed to fatal injuries 
experienced on the job. To date in 2017, nine miners have perished in 
coal mines including five in West Virginia alone with one fatal 
accident occurring less than two weeks ago.
    President Trump requested $375 million for the Mine Safety Health 
Administration (MSHA) for fiscal year 2018. This was an increase from 
the $374 million dollars that was enacted in the 2017 fiscal year 
budget. For many West Virginia families, coal mining is a way of life 
and we must arm the Federal Government with the necessary resources to 
ensure safety standards are met and our brave miners face less risk.
    Miners are the foundation of a robust mining industry, and we have 
an obligation to ensure their safety so that when they leave the house 
in the morning they know they will come home that night. Congress 
affirmed this obligation in the Federal Mine Safety & Health Act of 
1977 as well as the MINER Act of 2006 which created health and safety 
standards to protect the miners who put themselves in danger every day. 
I co-sponsored legislation again this year--the Robert C. Byrd Mine 
Safety Protection Act--which would increase criminal penalties for mien 
safety violations and ensure MSHA has the necessary enforcement 
authority to halt operations at unsafe mines.
    It's MSHA's job to provide a mechanism for miners and other 
operators to sound the alarm alerting Federal inspectors of dangerous 
conditions in the work place without fear of retribution and secure in 
the knowledge that help is coming.
    Secretary Acosta, what is your plan to ensure that MSHA has the 
necessary resources and authority to prevent future mining fatalities?
    Answer. The Mine Safety and Health Administration (MSHA) has an 
important responsibility to promote mine safety and an obligation to 
inspect facilities proactively. MSHA's funding level in the fiscal year 
2018 President's Budget will support MSHA's work as it continues to 
conduct mandated mine inspections, provide compliance assistance, and 
ensure that the agency has a sufficient number of trained mine 
inspectors to promote mine safety and prevent death, illness, and 
injury.
    With regard to MSHA's ability to carry out its important work, MSHA 
reviewed examination results and determined that approximately 15 to 20 
percent of MSHA inspectors and technical personnel do not currently 
meet the Agency's medical standards. This has been a growing problem 
over the past several years. The Department of Labor has taken action 
to ensure that MSHA inspectors and technical personnel meet the 
necessary standards in a fair and consistent manner.
    Question. Do you feel additional resources are necessary?
    Answer. The President's fiscal year 2018 Budget for MSHA includes 
$1 million above the 2017 Enacted level. MSHA is adequately funded to 
meet its statutory mandates. As the number of operating coal mines has 
changed over time, MSHA has been responsive to those changes and 
shifted personnel and resources to more closely align with the 
industry. MSHA will continue to be responsive to changes within the 
industry.
    Question. How do you intend to encourage an environment in which 
mine safety inspectors and mine employees are encouraged to speak up 
about violations?
    Answer. Thank you for the opportunity to respond. As a former 
United States Attorney, I am keenly aware of the need to foster an 
environment in which people are comfortable voicing concerns without 
fear of retribution. In some instances, that is the only way that the 
government learns about potential violations. Whistleblower rights are 
a part of both miners' and inspectors' mandatory training. The Federal 
Mine Safety and Health Act (Mine Act) protects miners from retaliation 
when they report safety and health concerns under the Mine Act.
    MSHA has an important responsibility to promote mine safety and an 
obligation to inspect facilities proactively. By law, MSHA is required 
to inspect every underground mine four times per year and each surface 
mine twice per year. Mine inspectors are required to cite violations 
observed during an inspection.
    Moreover, there are several options for miners to convey concerns 
about the safety of a mine outside of the mine inspection process. 
MSHA's whistleblower hotline is operated 24 hours a day, seven days a 
week and there is an online form available to report safety concerns 
directly to MSHA.
                     cuts to job training programs
    Question. Secretary Acosta, I am deeply concerned about the 
availability of job training and employment opportunities, especially 
for young adults who are not always being well prepared in our 
education system and for older workers, like coal miners, who need 
assistance in starting new careers.
    I have heard from employers across my state that they have jobs, 
but they don't have the workers with the skills needed to do those 
jobs.
    Yet the President's budget cuts job training programs by 40 percent 
or $1.1 billion dollars.
    Secretary Acosta, this reduction will obviously have a major impact 
on the number of individuals who are able to receive desperately needed 
job training.
    What will happen to those individuals and the employers who need 
workers?
    Answer. The President's Executive Order on Expanding 
Apprenticeships in America demonstrates this Administration's 
commitment to workforce development. Businesses need skilled workers 
and our education and workforce development programs need to be market-
responsive. We know that apprenticeships are extremely effective in 
bridging the skills gap while keeping pace with ever changing business 
demands. I am committed to increasing high-quality apprenticeships, 
including expansion into high-growth, emerging sectors. Americans 
looking for employment and employers looking for skilled workers are 
best served by a streamlined and efficient workforce system that 
partners with trade and industry groups, companies, non-profit 
organizations, unions, and joint labor-management organizations.
    Question. What will happen to the laid off coal miners in West 
Virginia who are ready, willing and able to be learn a new skill or 
trade but have few or no options because of these proposed budget cuts?
    Answer. The Department of Labor will make smart investments in 
programs that work. The President's fiscal year 2018 Budget proposal 
includes $66 million to provide employment and training assistance to 
workers in the Appalachian Region within the Department of Labor's 
National Dislocated Worker Grants activity. The President's Executive 
Order on Expanding Apprenticeships in America demonstrates this 
Administration's commitment to workforce development. Businesses need 
skilled workers and our education and workforce development programs 
need to be market-responsive. We know that apprenticeships are 
extremely effective in bridging the skills gap while keeping pace with 
ever changing business demands. I am committed to increasing high-
quality apprenticeships, including expansion into high-growth, emerging 
sectors. Americans looking for employment and employers looking for 
skilled workers are best served by a streamlined and efficient 
workforce system that partners with trade and industry groups, 
companies, non-profit organizations, unions, and joint labor-management 
organizations.
                      revising the fiduciary rule
    Question. Secretary Acosta, as you know, the Department's 
retirement-savings regulation known as the fiduciary rule took partial 
effect on June 9th.
    I am supportive of the Department's goal of protecting hard-working 
Americans as they save for retirement. However, I have expressed my 
concerns that the rule could stifle access to meaningful investment 
advice for Main Street investors.
    I am encouraged you will seek additional public comment on how to 
revise this rule. Specifically, I hope you will engage with the 
Securities and Exchange Commission (SEC) and the Financial Industry 
Regulatory Authority (FINRA), the primary regulators of Broker Dealers, 
to ensure efforts between these agencies and the Department are 
coordinated towards the common goal of a best interest standard that 
protects investors while at the same time ensuring we do not limit 
access to advice.
    Have you discussed potential revisions of the fiduciary rule with 
your counterparts at the SEC and FINRA?
    Answer. Chairman Clayton and I have discussed our mutual intention 
to engage constructively with regard to the fiduciary rule. Discussions 
between the Securities and Exchange Commission (SEC) and Department of 
Labor are ongoing at the staff level and higher. The Department will 
continue to collaborate with the SEC and Financial Industry Regulatory 
Authority (FINRA) as decisions are made on how to proceed in this area.
    The Department is currently conducting a careful review of the 
fiduciary rule and associated exemptions to decide whether further 
changes are necessary. As part of its ongoing review, including the 
Request for Information published in the Federal Register by the 
Department of Labor on July 6, 2017, the Department is carefully 
reviewing all the exemptions' conditions and could propose to eliminate 
or alter the contract conditions based on its findings and the comments 
received from the public.
    Question. What steps have you and the department taken to ensure 
coordination between the various agencies?
    Answer. Chairman Clayton and I have discussed our mutual intention 
to engage constructively with regard to the fiduciary rule. Discussions 
between the Securities and Exchange Commission (SEC) and Department of 
Labor are ongoing at the staff level and higher. The Department will 
continue to collaborate with the SEC and Financial Industry Regulatory 
Authority (FINRA) as decisions are made on how to best proceed in this 
area.
               special benefits for disabled coal miners
    Question. Secretary Acosta, the President's budget proposes cutting 
$7 million from the Special Benefits for Disabled Coal Miners program.
    That may seem like a small amount when we're talking about this 
huge budget, but for a small program that serves some of the hardest 
working people the country, that's a lot of money.
    These benefits go to coal miners who have been disabled due to 
black lung or other lung diseases caused by their time working in the 
mines. They can also go to their dependents and survivors.
    These are the people who worked their whole lives to bring energy 
to our country. The least we can do is see that they can pay their 
bills and put food on the table after their lifetime of service.
    Secretary Acosta, we made a promise to our miners and cutting this 
critical funding undermines that promise.
    Will you commit to working with me to protect these benefits for 
our coal miners and ensure that they continue to get the help that they 
need and deserve?
    Answer. I welcome the opportunity to work with Congress on this 
important issue. The Department of Labor is committed to protecting 
Federal black lung benefits for coal miners and ensuring that these 
miners and their families receive the assistance they are entitled to 
under the Black Lung Benefits Act (the Act).
    The Act includes two parts--Part B and Part C--both of which are 
administered by the Department of Labor. The Special Benefits for 
Disabled Coal Miners account funds activities and benefit payments 
under Part B of the Act, which only includes those claims filed on or 
before December 31, 1973 (with certain exceptions). As such, Part B 
beneficiaries are essentially a closed claimant population. Notably, 
from 2006 to 2016, the number of Part B claimants decreased from 46,000 
to 12,000 with a corresponding decrease in benefit payments from $320 
million to $96 million. We expect that, Part B beneficiaries and 
associated benefit payments will continue to decrease at a similar rate 
on a year-over-year basis. The 2018 Budget reflects this decrease, and 
not any change in benefits to the eligible population. Further, the 
account includes an indefinite appropriation after July 31 of the 
fiscal year should the definite appropriation fall short of what is 
needed to pay benefits.
                            funding for osha
    Question. Secretary Acosta, the Occupational Safety and Health 
Administration (OSHA) plays a critical role in ensuring that our 
workers are safe in their workplaces.
    Unfortunately, the President's budget request both includes a small 
cut to OSHA and shifts their focus away from enforcement and 
inspections. It would cut 26 employees and conduct almost 1000 fewer 
inspections.
    OSHA resources are already strained and too many workers are being 
put in danger. In 2015, 4,836 workers were killed on the job across the 
country.
    Secretary Acosta, given the danger that so many workers face in 
their workplaces, why is the Department of Labor shifting OSHA 
resources away from inspections? Won't this endanger workers?
    Answer. The Occupational Safety and Health Administration (OSHA) 
will continue to enforce the standards and regulations that safeguard 
workplace health and safety. The President's fiscal year 2018 Budget 
proposal includes sufficient funding to maintain a strong enforcement 
program.
    The President's fiscal year 2018 Budget includes an increase of $4 
million and 20 full-time equivalent employees to provide additional 
outreach and training to high-risk workers and their employers. This 
includes funding for additional Compliance Assistance Specialists, new 
training materials, and support for OSHA's Cooperative Programs, 
Strategic Partnerships, and Alliances to address hazards in high-risk 
industries.
                    budget cuts impact on job corps
    Question. The Department's budget request states that ``Job Corps 
graduates will be more competitive in the 21st century workforce as a 
result of increases in academic and career technical training 
credential attainment, supported by increases in numeracy and 
literacy.'' These increases in academic and career technical training 
performance will require highly skilled and highly trained instructors. 
Job Corps currently competes with the public schools for the best 
teachers, who often are able to provide higher wages and summers off.
    How will loss of funds affect job Corps' ability to hire, train, 
and retain the best instructors?
    Answer. The Department of Labor continues its work to maximize the 
impact of the funding that Congress provides the Job Corps program. The 
Department is committed to streamlining or eliminating programs based 
upon a rigorous analysis of available data to assess programmatic 
effectiveness. Regardless of the final budget for the program, the 
Department will continue these efforts and will use available data to 
ensure that the contractors the Department selects to run Job Corps 
centers are those best equipped to hire, train, and retain high-quality 
instructors. In addition to the core function of the Job Corps program, 
the Department is focused on strengthening the safety and security of 
Job Corps students and staff.
    The Department's budget request states that 27 percent of Job Corps 
students have a disclosed disability. Of those, 53 percent had a 
cognitive disability and 27 percent had a mental health disability.
    Question. How will loss of funds affect Job Corps' ability to 
provide intensive mental and behavioral health resources to students?
    Answer. Job Corps does not provide, and has not provided, intensive 
mental and behavioral health services to its students. This is 
presently outside of its mandate as a job skills program.
                         job corps partnerships
    Question. As you know, community colleges are often the principal 
workforce development provider in many of our communities, particularly 
rural communities. Job Corps has been undertaking an effort in recent 
years to align local centers with their local colleges through co-
enrollment and articulation agreements. These efforts advance the 
administration's goal of creating alternative pathways to middle class 
employment.
    Do you support these efforts to create such partnerships and 
articulation agreements so that Job Corps students can earn college 
credit while in the program?
    Answer. Job Corps continues to pursue partnerships and articulation 
agreements. Job Corps is also developing working models of community 
college partnerships that provide articulated coursework and dual 
credit enrollment that expedites education and technical certification 
attainment. I support these types of partnerships.
       prioritizing apprenticeship in the water utility industry
    Question. West Virginia, we have about $5 billion in unmet water 
and wastewater infrastructure needs. And I think we have all seen what 
happens when these needs are not addressed. So I have encouraged my 
colleagues to support Federal programs, particularly within the EPA, to 
ensure we have the necessary funding to continue to address these 
funding challenges.
    But, in there is also workforce challenge. In rural West Virginia, 
water utilities are struggling to fill jobs left behind by the aging 
water industry workforce. Water and wastewater utilities are the 
backbone of economic development, responsible for the public's health 
protection and stewards of safe drinking water delivery. But 92 percent 
of systems serve communities of 10,000 people or less. This Committee 
is considering prioritizing water industry jobs through an 
apprenticeship program.
    Would your Department support these efforts? Do you have any 
additional thoughts?
    Answer. High-quality apprenticeships can effectively help 
industries, including water and wastewater utilities, fill critical 
positions. The Department of Labor is focused on maximizing the 
efficient use of Federal resources so that individuals are prepared to 
meet workforce needs. The Department looks forward to working with all 
industries, including water utilities, to expand job opportunities for 
Americans and help ensure that American workers are prepared to fill 
open positions in vital industries throughout the nation. The 
Department is also prepared to work with the Environmental Protection 
Agency, along with water and wastewater industry employers, to increase 
the number of apprenticeship programs in West Virginia, building on the 
experience of the two programs currently active in the state.
    Question. Can you commit to working with this Committee to address 
this concern as we formulate our fiscal year 2018 appropriations bill?
    Answer. I welcome the opportunity to work with this Committee on 
this important issue. I am committed to working with all industries to 
expand the number of apprenticeships throughout the United States, 
including the water and wastewater industries. The Department of Labor 
is always willing to provide technical assistance for Congressional 
legislation and provide available information to Members of Congress.
    Question. Does your Department intend to reach 5 million new 
apprenticeships in 5 years by working with rural and small community 
water and wastewater utilities?
    Answer. As the Department of Labor works to expand apprenticeships 
across the United States, including new industry sectors, the 
Department welcomes the opportunity to work with the rural and small 
community water and wastewater utilities.
    Question. Have you considered what the best programs and methods 
are for training the water industry's workforce for the next 
generation? If not, why not?
    Answer. The Department of Labor funds multiple employment and 
education programs, including programs related to water and wastewater 
quality and treatment, through states that are delivered locally 
through American Job Centers located throughout the United States. The 
Department encourages rural water utilities to consider partnering with 
states, educational institutions, Local Workforce Development Boards, 
and other stakeholders to develop strategies designed to address the 
specific workforce needs for the water and waste water industries in 
their areas. Funding for these programs can be used to support 
education and workforce development strategies to meet the skill needs 
of business and industry.
    With regard to your specific question, the Department's Office of 
Apprenticeship is working with the National Rural Water Association 
(NRWA), the nation's largest water utility association with 
approximately 34,000 affiliate member organization, to develop National 
Guideline Apprenticeship Standards for Water and Waste Water Operations 
Specialist. These standards will create a pipeline for a new generation 
of water and wastewater utility workers that will be capable of keeping 
America's drinking water safe and available.
    Question. Will you commit the Department of Labor to doing so and 
to ensuring that these programs offer specialized guidance and support 
for workforces for rural communities?
    Answer. As the Department of Labor works to expand apprenticeships 
across the United States, including new industry sectors, the 
Department welcomes the opportunity to work with the rural and small 
community water and wastewater utilities.
                infrastructure employment opportunities
    Question. Secretary Acosta, I am committed to getting our U.S. 
economy going again. My office have hosted over 14 Job Fairs across the 
state that had thousands of people have attended that have helped link 
West Virginians looking for employment up with jobs. I am doing all 
that I can to make this happen.
    In West Virginia, we are eagerly awaiting the details of the 
Administration's Infrastructure initiative to help us address some of 
the rail/road/runaway/broadband issues that we have. I envision 
employment opportunities locally, state-wide and regionally that will 
reinvigorate our West Virginia workforce and our economy.
    Mr. Secretary, I imagine that there are a number of labor-related 
challenges that the Administration's Infrastructure Task Force is 
engaged in to help reduce barriers to efficient and targeted employment 
opportunities for the various projects and programs under 
consideration.
    Can you describe what role the Department has in these 
infrastructure discussions?
    Answer. The Department of Labor's role in this task force focuses 
on workforce development and reducing administrative burdens on 
infrastructure projects. A few specific ways the Department is 
contributing are discussed below.
    One way the Department helps to reduce these burdens is through 
compliance assistance. For example, the Department provides compliance 
assistance for mass transit agencies and authorities that seek Federal 
grants subject to 49 U.S.C. Sec. 5333(b). The Department's outreach to 
mass transit agencies allows the agencies to address issues that may 
result in delays to funding.
    The Department is currently working with the Department of 
Transportation to better understand transportation workforce needs.
    With regard to workforce development, the Department is focusing on 
ways that employees can be prepared to work in fields that are 
necessary parts of infrastructure projects.
    The Department's continuing work to implement the President's 
Executive Order on Expanding Apprenticeships in America is an important 
part of workforce development in the infrastructure space.
    Question. How can the committee help you and the Department ensure 
that American workers and our economy benefit from these opportunities?
    Answer. I welcome the opportunity to work with members of Congress 
and this Committee on this important issue. The Senate Committee on 
Appropriations can help on these issues by providing the Administration 
the flexibility necessary to implement its programs in ways that are 
proven to work; where appropriate, returning control to states and 
businesses; and redirecting Federal resources toward strategies known 
to be effective, such as apprenticeships.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                          federal minimum wage
    Question. The administration claims that the fiscal year 2018 
proposed budget cuts and eliminations will help your Department 
streamline its activities in states by reducing inefficient and 
duplicative programs; however, the greatest impact on worker's lives 
would be to increase the Federal minimum wage.
    Do you support raising the minimum wage to $15 per hour? If not, 
please explain why.
    Answer. As you know, Congress is ultimately responsible for setting 
the Federal minimum wage and states and localities may also set a 
minimum wage. The Department of Labor, however, has no authority to act 
unilaterally. I recognize that cost of living and other economic 
factors vary greatly across the United States and that many states and 
localities have increased their minimum wage above the Federal floor. 
The Department is committed to fully and fairly enforcing the minimum 
wage law at the level set by Congress.
               paid parental leave program administration
    Question. President Trump's fiscal year 2018 budget reduces the 
Department of Labor's funding by $2.4 billion, roughly 20 percent below 
the fiscal year 2017 enacted funding level. The overwhelming majority 
of these cuts are proposed for workforce training, employment services, 
and unemployment insurance programs--all areas that support job 
creation. The budget also includes a mandatory proposal for six weeks 
of paid parental leave, but includes the program within the 
unemployment insurance (UI) program, which is offset with UI program 
integrity reform proposals.
    President Trump's budget includes a mandatory six week paid 
parental leave program within the Unemployment Insurance program.
    How will states administer the paid parental leave program?
    Answer. As a preliminary matter, the President's paid parental 
leave program would require Federal legislation and the Department of 
Labor is ready to work with Congress on the details of the legislation. 
The President's proposed fiscal year 2018 budget includes a six-week 
paid parental leave program for the birth or adoption of a child. The 
paid parental leave program would be based in the UI program using the 
existing infrastructure for eligibility determination, benefit 
delivery, and revenue collection. The program would have separate 
accounting mechanisms and operate as a separate program similar to the 
Unemployment Compensation for Federal Employees (UCFE) and Unemployment 
Compensation for Ex-servicemembers (UCX) programs. Under the proposal, 
states would be required to make six weeks of paid leave available, but 
would have broad flexibility and discretion to design their programs 
otherwise, including how to finance the benefits. The Administration's 
proposal also assumes that states that already have their own paid 
leave systems in place would be permitted to opt out.
    Question. What are the consequences to states that do not 
administer a paid parental leave program?
    Answer. The President's paid parental leave program would require 
Federal legislation and the Department of Labor is ready to work with 
Congress on the details of the legislation. The President's proposal 
would implement a paid parental leave program in every state.
    Question. Will the resources to pay for parental paid leave impact 
other UI programs?
    Answer. The President's fiscal year 2018 budget proposed a package 
of mandatory savings proposals to improve UI program integrity and 
solvency, including minimum solvency standards. The benefits and 
program administration of the President's paid parental leave plan, 
including start-up costs, would be fully offset by proposals designed 
to reduce improper UI payments, help unemployed workers find jobs more 
quickly, and improve the solvency of state accounts within the 
Unemployment Trust Fund. Like the Federal-state UI program, the Federal 
Government would provide administrative funding for the program's 
operating costs. The states would be responsible for the cost of paying 
benefits from their state UI funds from state-levied revenues. In 
addition, states would be responsible for ensuring they have sufficient 
resources to fund benefits for both their UI and paid parental leave 
programs.
    Question. Please explain how UI resources will pay for paid 
parental leave.
    Answer. The benefits and program administration of the President's 
paid parental leave plan, including start-up costs, would be fully 
offset by proposals designed to reduce improper UI payments, help 
unemployed workers find jobs more quickly, and improve the solvency of 
state accounts within the Unemployment Trust Fund. Like the Federal-
state UI program, the Federal Government would provide startup and 
administrative funding for the program's operating costs. The states 
would be responsible for the cost of paying benefits from their state 
UI funds from state-levied revenues. In addition, states would be 
responsible for ensuring they have sufficient resources to fund 
benefits for both their UI and paid parental leave programs.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee stands in recess.
    [Whereupon, at 12:12 p.m., Tuesday, June 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
